<html>
<title> - EFFECTIVE STRATEGIES AGAINST TERRORISM</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




                 EFFECTIVE STRATEGIES AGAINST TERRORISM

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   EMERGING THREATS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 3, 2004

                               __________

                           Serial No. 108-150

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
94-017                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
------ ------                                    ------
------ ------                        BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

 Subcommittee on National Security, Emerging Threats and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman

MICHAEL R. TURNER, Ohio
DAN BURTON, Indiana                  DENNIS J. KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           TOM LANTOS, California
RON LEWIS, Kentucky                  BERNARD SANDERS, Vermont
TODD RUSSELL PLATTS, Pennsylvania    STEPHEN F. LYNCH, Massachusetts
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York
EDWARD L. SCHROCK, Virginia          LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
------ ------                        JOHN F. TIERNEY, Massachusetts
                                     ------ ------

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              R. Nicholas Palarino, Senior Policy Advisor
                        Robert A. Briggs, Clerk
             Andrew Su, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 3, 2004.................................     1
Statement of:
    Kass, Lani, professor of military strategy and operations, 
      National War College; David H. McIntyre, former dean of 
      faculty, National Defense University; Randall J. Larsen, 
      Colonel, USAF (ret), CEO, Homeland Security Associates; and 
      Frank Cilluffo, associate vice president for homeland 
      security, the George Washington University.................    78
    Yim, Randall A., Managing Director, Homeland Security and 
      Justice Team, U.S. General Accounting Office...............     6
Letters, statements, etc., submitted for the record by:
    Cilluffo, Frank, associate vice president for homeland 
      security, the George Washington University, prepared 
      statement of...............................................   141
    Kass, Lani, professor of military strategy and operations, 
      National War College, prepared statement of................    81
    Larsen, Randall J., Colonel, USAF (ret), CEO, Homeland 
      Security Associates, prepared statement of.................   132
    McIntyre, David H., former dean of faculty, National Defense 
      University, prepared statement of..........................   115
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Yim, Randall A., Managing Director, Homeland Security and 
      Justice Team, U.S. General Accounting Office, prepared 
      statement of...............................................    10

 
                 EFFECTIVE STRATEGIES AGAINST TERRORISM

                              ----------                              


                       TUESDAY, FEBRUARY 3, 2004

                  House of Representatives,
Subcommittee on National Security, Emerging Threats 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:09 a.m., in 
room 2247, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) Presiding.
    Present: Representatives Shays, Turner, Schrock, Murphy, 
Ruppersberger and Tierney.
    Staff present: Lawrence Halloran, staff director and 
counsel; R. Nicholas Palarino, senior policy advisor; Thomas 
Costa, professional staff member; Robert A. Briggs, clerk; 
Andrew Su, minority professional staff member; and Jean Gosa, 
minority assistant clerk.
    Mr. Shays. A quorum being present, the Subcommittee on 
National Security, Emerging Threats and International Relations 
hearing entitled, ``Effective Strategies Against Terrorism,'' 
is called to order.
    Scientists remind us the plural of anecdote is not data. In 
the realm of national security, a similar axiom would hold the 
proliferation of counterterrorism strategies does not 
necessarily mean we are any safer. Only if those strategies 
guide us inexorably and immeasurably toward clearly articulated 
goals will they secure our liberty and prosperity against the 
threats of a new and dangerous era.
    Prior to September 11, 2001, this subcommittee heard 
testimony based on the work of the three national commissions 
on terrorism--Bremer, Gilmore and Hart-Rudman--citing the lack 
of any overarching counterterrorism strategy. Last year, 
witnesses told us the Bush administration had succeeded in 
filling the strategic void with no less than eight high-level 
mission statements on national security, military strategy, 
global terrorism, homeland security, weapons of mass 
destruction, money laundering, cybersecurity, and critical 
infrastructure.
    These strategies suggest the need for a post-cold war 
security paradigm that replaces containment and mutually 
assured destruction with detection, prevention and, at times, 
preemptive action to protect the fundamental interests of the 
United States. But the multi-dimensional threat of terrorism 
demands levels of strategic dynamism, flexibility and 
accountability never required to meet the relatively static 
Soviet menace. So we asked the General Accounting Office [GAO], 
to describe the fundamental characteristics of a coherent 
framework; one that clearly states a purpose, assesses risk, 
sets goals, defines needed resources, assigns responsibilities, 
and integrates implementation.
    According to their analysis, current strategies contain 
many of these traits to some degree, but do not yet include key 
elements, particularly in the area of resource implementation 
and coordination to avoid duplication.
    Yesterday, the President's proposed budget for the next 
fiscal year outlined the near and long-term costs of the war 
against terrorism. The strategies under discussion here today 
contain the words that are supposed to be driving those numbers 
toward achievement of higher level of tangible national goals. 
How can those strategies be clear, more concrete, and more 
tightly integrated into an inescapably logical whole? How will 
we know programs are achieving strategic objectives?
    Testimony by GAO and by our second panel of expert 
witnesses will help us understand those questions and assess 
the strength and weaknesses of current counterterrorism 
strategies. We are very grateful for the insight and expertise 
they bring to our ongoing oversight, and we look forward to 
their testimony.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T4017.001
    
    [GRAPHIC] [TIFF OMITTED] T4017.002
    
    Mr. Shays. At this time, the Chair would recognize the vice 
chairman of the committee, the gentleman from Ohio.
    Mr. Turner. Mr. Chairman, thank you.
    I just want to continue to appreciate your focus on these 
issues, and I look forward to the testimony today.
    Mr. Shays. Thank you very much; and the gentleman from 
Virginia.
    Mr. Schrock. Thank you, Mr. Chairman; and thank you for 
holding this hearing on a most important aspect of national 
security. It is indeed a fitting and appropriate way for us to 
begin this session.
    I also want to thank all of the witnesses for lending their 
expertise to this committee's efforts to better understand and 
evaluate this matter. That the events of September 11, 2001, in 
their scale and audacity were such an unexpected invasion upon 
our sense of safety and control of our lives and that a small 
number of terrorists could strike such a devastating blow gives 
a sense of urgency to our need to distill our security 
division.
    The National Security Strategy put forth by this 
administration in September 2002, is a commendable step in this 
effort to focus our military law enforcement and diplomatic 
resources to enhancing our security.
    Like many members of this committee I still have grave 
concerns about our ability to integrate the efforts working to 
make this country more secure, particularly with respect to 
intelligence gathering and sharing. I am confident that, given 
the urgency of the war on terror, we all feel that as a Nation 
we will continue to identify our weaknesses and work to improve 
and rise to the challenge.
    Again, Mr. Chairman, thank you for holding this hearing to 
advance us toward this goal and to the witnesses for both their 
time in testifying and analyzing this important effort.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you, Mr. Schrock, and thank you as well 
for your really faithful participation on this committee. I'd 
like to align myself with your comments.
    I'd ask unanimous consent that all members of the 
subcommittee be permitted to place an opening statement in the 
record, and without objection so ordered, and that the record 
remain open for 3 days for that purpose.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statements in the record, 
and without objection so ordered.
    At this time, we will recognize our first panel, comprised 
of one individual, Mr. Randall Yim, Managing Director of 
Homeland Security and Justice Team, U.S. General Accounting 
Office.
    Mr. Yim, if you will stand, we will swear you in and then 
begin the testimony.
    [Witness sworn.]
    Mr. Shays. Thank you.
    We appreciate your presence here today and the terrific 
work that GAO does on so many issues. You and your colleagues 
are invaluable to the work of this committee and to the work of 
Congress.
    With that, what we'll do is we have 5 minutes. We'll roll 
it over another 5 minutes.
    Is the clock working? OK.

   STATEMENT OF RANDALL A. YIM, MANAGING DIRECTOR, HOMELAND 
   SECURITY AND JUSTICE TEAM, U.S. GENERAL ACCOUNTING OFFICE

    Mr. Yim. Thank you, Mr. Chairman.
    Mr. Chairman, Vice Chairman Turner, Ranking Member 
Kucinich, Mr. Schrock, members of the committee, thank you for 
providing GAO with this opportunity to contribute to our 
Homeland Security efforts.
    We undertook this work at this committee's request to 
constructively assist the Congress and the executive agencies 
in moving our Nation forward, in sync, in concert, with the 
available resources in a balanced, measured, and measurable 
manner toward better Homeland Security and national 
preparedness.
    We hope that our testimony today assists in the evolution 
and implementation of national strategies so that Homeland 
Security efforts nationwide are clear, sustainable, integrated 
into agency governmental and private sector missions, helps in 
the difficult decisions in balancing Homeland Security 
priorities with other national objectives and ensures 
transparency needed for effective oversight and accountability.
    In our review, we recognize that the national strategies 
are only beginning starting points for other parties developing 
more detailed implementation plans; and we recognize that the 
true measure of these strategies will be determined through 
time as they are implemented by the Federal, State, local and 
private international sectors and as Homeland Security actions 
are embedded or integrated into ongoing governmental and 
private sector missions in sustainable, balanced ways.
    Thus, the value of these strategies will be the extent to 
which they are useful for and actually used by the responsible 
parties to guide their own actions, to make difficult 
resourcing decisions and to develop and maintain their assigned 
capabilities to respond as expected when needed.
    This means that the strategies must be relevant and useful 
not only during times of crisis but during prolonged times of 
preparedness. The strategies must be useful for all phases of 
our Homeland Security efforts, prevention, vulnerability 
assessment, reduction response and recovery; and these 
strategies should be used not just when an emergency arises, 
when there is a danger of panic driven activities, but during 
the hopefully increasingly long periods of time when there are 
no attacks, no horrific situations that consume our attention.
    I recently spoke at a senior commanders' conference for the 
Joint Command that includes the military district of 
Washington. One of the concerns raised by the senior leaders is 
that we must act now to define and coordinate the 
responsibilities of the Federal, State and local governments 
and the private sector while their memories of September 11 are 
still in the forefront before complacency sets in and hampers 
our efforts.
    Indeed, a survey of about 1,400 private CEOs presented at 
the World Economic Forum rates global terrorism only tied for 
6th on the list of 11 challenges that these CEOs view to the 
biggest threat to their companies.
    Our Nation must make the necessary steps to improve 
Homeland Security now with a sense of urgency. The strategies 
must make such improvements even without an immediate emergent 
situation.
    What did we find?
    We found that the national strategies are not required by 
executive or legislative mandate to address a single set of 
characteristics and, not surprisingly, they contain varying 
degrees of detail based upon their scopes and maturity in their 
underlying programs.
    Further, we found that there is no commonly accepted set of 
characteristics used for a national strategy. As a result, 
after consulting with numerous sources, GAO developed a set of 
desirable characteristics that we believe are critical to 
provide effective guidance. These are: a statement of purpose 
scope and methodology; second, a problem of risk definition and 
assessment; third, identification of goals, subordinate 
objectives, activities, and performance measures; fourth, 
resource investment and risk management discussions; fifth, 
organizational roles responsibilities and coordination; and, 
finally, integration and implementation.
    We then evaluated the seven national strategies by the 
extent to which they contain these key characteristics. The 
seven strategies we evaluated were: the National Security 
Strategy of the United States, September 2002, publication; the 
National Strategy for Homeland Security in July 2002; the 
National Strategy for Combating Terrorism in February 2003; the 
National Strategy to Combat Weapons of Mass Destruction in 
December 2002; the National Strategy for Physical Protection of 
Critical Infrastructure and Key Assets, February 2003; the 
National Strategy to Secure Cyberspace, February 2003; and the 
2002 Money Laundering Strategy.
    Page 4 of my testimony contains a matrix summarizing the 
results of our evaluation, and I'd like to emphasize certain 
points on that table. Five of these points are newly published 
in September 11 and relate to specific areas of homeland 
security and combating terrorism. The other two strategies, the 
National Security Strategy and the 2002 Money Laundering 
Strategy, were updated from pre-September 11 versions, and only 
these two strategies are required by statutes that mandate 
specific content elements.
    Thus, admittedly the six identified key characteristics and 
the evaluation of the extent to which the strategies address 
these characteristics have a degree of subjectivity, even 
though we at GAO follow consistent and clear criteria during 
our evaluation.
    Because of this inherent subjectivity, the value of our 
analysis lies not in an absolute or stand-alone assessment of 
the strategies. That is, we are not attempting to assign an 
absolute grade to the strategy but rather a comparative 
analysis between and among the strategy. Some are better in our 
views than others. Some employ best practices that have 
enhanced value to the users.
    Our objective is to learn from the best to assist this 
Congress in continually evolving these strategies in an 
expedited matter.
    The strategies generally do not address resourcing risk 
management and implementation. Those desired objectives are not 
clearly linked to funding and sustainability.
    How are we going to pay for homeland security measures, who 
should pay, how do we factor in costs--effectiveness? How do we 
implement additional homeland security without consequences 
such as deleterious impacts upon businesses or civil liberties, 
privacy issues; and, second, even where the desirable 
characteristics are addressed, the strategies could be 
improved.
    Of course, while strategies identify goals, subordinate 
objectives and specific activities, they generally do not 
discuss or identify priorities, milestones or performance 
measures that we consider are crucial to effective oversight 
and decisionmaking. So let me briefly touch upon those six 
characteristics with a specific example.
    First, purpose, scope, and methodology. Fundamentally, a 
good strategy has to identify what it does and it does not 
cover so that the users know what to expect and the right 
people are brought together for both development and 
implementation.
    Importantly, key definitions can provide the clarity 
necessary. For example, some of the earlier iterations of the 
critical infrastructure protection strategy defined it as 
cyberstrategy, as opposed to physical structures. That was 
clarified later, as to help the users agree upon a problem to 
be addressed in some means to determine priorities. So some 
strategies like money strategy focuses on law enforcement, 
others on deterrence, others on prevention and response; and 
that can sometimes lead to conflicts or tensions between the 
agencies because sometimes law enforcement is incompatible with 
crime scene response. So it's very difficult. We have to define 
problems, set priorities. We have to do it fundamentally on a 
risk basis by identifying threats, identifying vulnerabilities 
and the cascading impacts, should a threat come to fruition.
    The Homeland Security Strategy does have a separate threat 
and vulnerability section, but many others do not.
    Third one, goals, performance measures. Obviously, we would 
like to have a hierarchy of goals to achieve those end-states.
    Performance or out-commissioned goals, as opposed to some 
of the mistakes we made in the Department of Defense of 
prescribing specific solutions, allow responsible parties to 
develop integrated approaches and to tailor it to specific 
sectors or regions; and they allow us some accountability both 
as to the use of funds but also are people capable of assuming 
assigned responsibilities once the strategies make those 
assignments.
    Next category, resource investment and risk management. The 
strategy should address cost issues, how much, who's going to 
pay, how are we going to pay, the types of resources and 
investments associated. I think they all make the logical 
assumption that we cannot afford to do everything, so we have 
to have some rational risk management approach to do the things 
that are best within our available resources to stretch and 
leverage our resources. For example, the cyberspace strategy 
relies upon market-driven approaches because of rapid changing 
technology in that arena. However, on other sectors that don't 
move as quickly, bridges or transit, perhaps another strategy 
could be employed.
    Organizational roles and responsibility is a fundamental 
question of who's in charge of not only during times of crisis 
but during what I said, times of prolonged preparedness.
    Who's in charge. Also, let's us coordinate the activities 
among various responsible parties. The Money Laundering 
Strategy is a good example. It assigns specific objectives.
    And, finally, integration and implementation. We will never 
be fully successful in our homeland security strategies if we 
continue to see homeland security as a separate cost activity. 
We will and should overlap with other national important 
strategies. We have to talk about designing in homeland 
security up-front at the same time we're talking about 
recapitalizing our infrastructure, rather than trying to 
retrofit our infrastructure; and I think that these types of 
integration will help us strike fundamental balances of the 
many important things our citizens are asking the government to 
do.
    So where do we go from here? I'd like to conclude my oral 
comments with a few observations and suggestions.
    As I said before, the ultimate test of the strategy will be 
determined through time as they're implemented. Are they 
useful? Are they actually being used by the parties 
responsible?
    So it's going to be very responsible for GAO, this 
committee, the Congress, the administration, to solicit input 
from all responsible parties, State and local, international 
and incorporate this to ensure improved preparedness. The 
feedback will be to this committee, and obstacles will be 
identified that may require legislative action if necessary. 
Feedback to the Congress will also allow us to improve our 
grant systems and other stimulus and investment programs. 
Mechanisms that set performance metrics will really help us 
tell if we're getting our money's worth.
    Finally, integration and implementation may be enhanced by 
national standards that link together these responsible parties 
using management and systems principles that are analogous to 
some of the very recognized ISO-type management standards that 
have been used.
    Much has been done, Mr. Chairman; much more needs to be 
done; and GAO looks forward to working with this committee.
    Thank you.
    Mr. Shays. Thank you, Mr. Yim, for your testimony and for 
all your good work.
    [The prepared statement of Mr. Yim follows:]

    [GRAPHIC] [TIFF OMITTED] T4017.003
    
    [GRAPHIC] [TIFF OMITTED] T4017.004
    
    [GRAPHIC] [TIFF OMITTED] T4017.005
    
    [GRAPHIC] [TIFF OMITTED] T4017.006
    
    [GRAPHIC] [TIFF OMITTED] T4017.007
    
    [GRAPHIC] [TIFF OMITTED] T4017.008
    
    [GRAPHIC] [TIFF OMITTED] T4017.009
    
    [GRAPHIC] [TIFF OMITTED] T4017.010
    
    [GRAPHIC] [TIFF OMITTED] T4017.011
    
    [GRAPHIC] [TIFF OMITTED] T4017.012
    
    [GRAPHIC] [TIFF OMITTED] T4017.013
    
    [GRAPHIC] [TIFF OMITTED] T4017.014
    
    [GRAPHIC] [TIFF OMITTED] T4017.015
    
    [GRAPHIC] [TIFF OMITTED] T4017.016
    
    [GRAPHIC] [TIFF OMITTED] T4017.017
    
    [GRAPHIC] [TIFF OMITTED] T4017.018
    
    [GRAPHIC] [TIFF OMITTED] T4017.019
    
    [GRAPHIC] [TIFF OMITTED] T4017.020
    
    [GRAPHIC] [TIFF OMITTED] T4017.021
    
    [GRAPHIC] [TIFF OMITTED] T4017.022
    
    [GRAPHIC] [TIFF OMITTED] T4017.023
    
    [GRAPHIC] [TIFF OMITTED] T4017.024
    
    [GRAPHIC] [TIFF OMITTED] T4017.025
    
    [GRAPHIC] [TIFF OMITTED] T4017.026
    
    [GRAPHIC] [TIFF OMITTED] T4017.027
    
    [GRAPHIC] [TIFF OMITTED] T4017.028
    
    [GRAPHIC] [TIFF OMITTED] T4017.029
    
    [GRAPHIC] [TIFF OMITTED] T4017.030
    
    [GRAPHIC] [TIFF OMITTED] T4017.031
    
    [GRAPHIC] [TIFF OMITTED] T4017.032
    
    [GRAPHIC] [TIFF OMITTED] T4017.033
    
    [GRAPHIC] [TIFF OMITTED] T4017.034
    
    [GRAPHIC] [TIFF OMITTED] T4017.035
    
    [GRAPHIC] [TIFF OMITTED] T4017.036
    
    [GRAPHIC] [TIFF OMITTED] T4017.037
    
    [GRAPHIC] [TIFF OMITTED] T4017.038
    
    [GRAPHIC] [TIFF OMITTED] T4017.039
    
    [GRAPHIC] [TIFF OMITTED] T4017.040
    
    [GRAPHIC] [TIFF OMITTED] T4017.041
    
    [GRAPHIC] [TIFF OMITTED] T4017.042
    
    [GRAPHIC] [TIFF OMITTED] T4017.043
    
    [GRAPHIC] [TIFF OMITTED] T4017.044
    
    [GRAPHIC] [TIFF OMITTED] T4017.045
    
    [GRAPHIC] [TIFF OMITTED] T4017.046
    
    [GRAPHIC] [TIFF OMITTED] T4017.047
    
    [GRAPHIC] [TIFF OMITTED] T4017.048
    
    [GRAPHIC] [TIFF OMITTED] T4017.049
    
    [GRAPHIC] [TIFF OMITTED] T4017.050
    
    [GRAPHIC] [TIFF OMITTED] T4017.051
    
    [GRAPHIC] [TIFF OMITTED] T4017.052
    
    Mr. Shays. We'll start with Congressman Schrock first; and 
then we'll go to you, Mr. Ruppersberger, and then to you, Mr. 
Vice Chairman, and then to you, John.
    Mr. Schrock. Thank you, Mr. Chairman.
    Thank you, Mr. Yim. Fascinating remarks.
    I, too, worry about complacency. Every day we get further 
away from September 11, I worry more and more.
    This is your matrix?
    Mr. Yim. Yes, sir.
    Mr. Schrock. I was fascinated by those that were mixed, 
mediocre, or weak; and that's not good. This certainly needs to 
be improved.
    I don't know how quick it's going to happen, and the 
desired objective is not linked to money. That seems to be the 
key to everything up here. It seems we have to put our money 
where our objectives are or we're going to pay for it.
    I'm going to make a couple comments, and I'm going to let 
the second panel know we are going to ask the same questions.
    I believe the National Security Strategy is a forward-
looking vision that goes a long way toward reorienting our 
Nation toward the post-September 11 world.
    I do note as a document focused primarily on international 
relations, reorienting military and intelligence capabilities 
is only mentioned in a cursory fashion. While a companion 
national military strategy has been written, I'm not aware of a 
similar national intelligence strategy.
    Though there is no doubt in my mind that we possess the 
finest military and intelligence capabilities in the world, I 
remain uneasy about our ability to evaluate non-traditional and 
asymmetric threats and to integrate the many different strains 
of intelligence that we gather.
    That being said, in your opinion, should we develop a 
national intelligence strategy that addresses these perceived 
weaknesses; and, if developed, what would you recommend such 
strategy address?
    You touched on some of that, but I wonder if you could go 
into more detail.
    Mr. Yim. Yes, that is certainly a key issue. Threat and 
risk assessment based on good intelligence is a critical 
precursor to setting our priorities and allocating the 
resources effectively and cost effectively. While most of our 
criteria that we discussed today talked about transparency and 
accountability, there will be a need for secrecy in a national 
intelligence strategy. On the other hand, more and more people 
need to be connected to the intelligence communities that have 
not been in the past; and those people are unfamiliar as to who 
to call, what expectations on the type of information that they 
will receive, the detailed nature of that information. So I 
think that makes it all imperative that we have some sort of 
national strategy.
    Generally, some of the national strategies do discuss 
intelligence issues. For example, the National Homeland 
Security Strategy has a primary section on intelligence and 
warning, talking about building new capabilities through the 
information assurance and information infrastructure profession 
directorate.
    The Combating Terrorism Strategy talks about locating 
terrorists in their organization and assessing intelligence 
capabilities to gather human and technical intelligence.
    The Combating Terrorism Strategy also references this TTIC, 
the Terrorist Threat Integration Center, and talks about the 
need for intelligence fusion, taking all of the data that's 
being gathered by our intelligence community and fusing it into 
adequate material. This is in various locations.
    Does it need to be brought together? I think that's one of 
the various purposes of the Terrorist Threat Integration 
Center; and I think our discussion from the State, local and 
private sector, they would like a more coordinated way to 
receive threat information so they can plan accordingly.
    Mr. Schrock. I agree.
    You said who to call? I think somebody told me there were 
47 Federal agencies that did intelligence after September 11. 
Nobody would share with anybody, and I think that's a big 
problem. God forbid we suggest merge the CIA and FBI together. 
There would be a revolt like you've never seen, but it's 
coming.
    No. 2, the strategies that GAO submitted reporting to this 
committee state that--in an unequivocal fashion our national 
policies toward a variety of threats from both traditional and 
non-traditional actors. Our goals are clearly stated.
    As leaders, we have become comfortable with the idea that 
the war on terror must be a sustained and lasting effort. We 
believe we must not use that fact as an excuse to prolong our 
evaluation of our short-term progress. These strategies for the 
most part do not include metrics or milestones to be used to 
measure our progress.
    Question: Should we develop a timeline along which to 
assess our progress in implementing these strategies, and what 
would you propose as metric suitable for measuring our progress 
toward achieving the stated goals and objectives of these 
strategies?
    Mr. Yim. Yes, I think, sir, that the timelines are 
imperative. People do react to timelines.
    I think initially when the strategies were developed, 
because so much needed to be done and it wasn't clear how we 
were going to approach some of these issues, that, in fairness, 
some of them did not have timelines.
    However, we have seen iterations now. Further documents 
come out from our national statutes. We've had firm timelines 
imposed by the Congress on baggage screening, for example. 
We've had firm deadlines imposed upon the Coast Guard for port 
vulnerability assessments. We recently had the administration 
issue two Presidential directives, Homeland Security Directives 
No. 7 and 8, in December 2003, that assigned firm 
responsibilities and tasked the secretaries of the responsible 
Cabinet agencies within fixed periods of time to develop 
certain strategies, to develop performance metrics. I think 
that's clearly what we need.
    What Congress has done in certain areas is legislate or 
mandate particular timeframes, and I think that may be an 
option that could be considered.
    One of the dangers is that sometimes that may tie or limit 
some of the flexibility, but certainly I think for the Congress 
to exert that type of oversight is certainly something that 
should be considered, sir.
    Mr. Shays. Thank you.
    Let me just say that we usually go 10 minutes. I think with 
so many Members we probably should do a first round of 5 
minutes.
    I just want to say, for all the Members, the first hearing 
we had was a hearing that said we had no real strategies. Now 
we have this proliferation of eight strategies; and this 
hearing is to kind of evaluate how we're doing on these 
strategies and what is, in essence, a good strategy, how do we 
determine that.
    And at the third hearing we're going to have--I just want 
to put it on the record, Mr. Ruppersberger, because you 
mentioned it--the third hearing we will have government 
witnesses. The administration needs to come and say, OK, we 
know we went from none to many and now we're trying to evaluate 
them and this is what we're finding. What's your response and 
where are we.
    Mr Ruppersberger, I recognize you.
    Mr. Ruppersberger. Mr. Yim, you stated there was 
considerable variation to the extent of the strategies and how 
it related to homeland security and terrorism and that all the 
strategies identified goals, supported objectives, and other 
characteristics. But the strategies generally, from what I'm 
hearing from your testimony and correct me if I'm wrong, do not 
address resources, investments, and risk management, or 
integration, implementation. And even where the characteristics 
are addressed, improvements could be made.
    For example, while the strategies identify goals, support 
objectives and specific activities, they generally do not 
address or discuss priorities, milestones, or performance 
measures, which is where we want to get, where our goal is; and 
the elements are desirable for evaluating progress and 
achieving oversight.
    Now you stated the strategies range from strong to weak in 
defining problems. For example, Homeland Security, Cyberspace 
and Critical Infrastructure Strategies were judged to be the 
most developed, while National Security Strategy and WMD were 
considered to be the most vague and weakest; is that correct?
    Mr. Yim. That's correct, sir.
    Mr. Ruppersberger. Now do different levels of maturation 
and subject expertise really account for all the differences?
    Mr. Yim. I think that accounts for some of the differences 
but not all of the differences.
    The value, as I said, of our analysis is it is comparative 
analysis. You could expect the National Security Strategy, the 
most top-level strategy, would probably be the most general one 
in nature. You would expect the Money Laundering Strategy, 
which is targeted for specific agencies--FBI, law enforcement--
that has a long history of criminal activities would be more 
definite in defining roles and responsibilities.
    Mr. Ruppersberger. WMDs have been around longer than 
cyberspace.
    Mr. Yim. Yes, and I think that really talks about 
counterproliferation, nonproliferation and just management in 
very general terms; and it doesn't--is it useful in such 
general terms for people that are going to be charged with 
implementation of the strategy? I think that's the question 
we're raising.
    Other strategies like the National Security Strategy, the 
Homeland Security Strategy had ways to be specific. They said 
who was in charge of specific activities. Perhaps that could be 
added to the Weapons of Mass Destruction Strategy. Perhaps 
there could be some timelines added to the WMD strategies.
    Performance measures? That's perhaps hard to judge.
    So we're not saying that each strategy has to be at the 
same level, but I think there's significant lessons from each 
strategy. And each could be improved, all could be improved, of 
course.
    Mr. Ruppersberger. Why do you think the administration 
really outlined the strategies the way they did?
    Mr. Yim. It's hard for me to speculate.
    I think one of the reasons some of the strategies are less 
specific is that, in certain areas, so much needed to be done 
right after September 11 that even general strategies were 
useful to mobilize the resources.
    We were so lacking in preparedness, despite the Bremer 
Commission, Gilmore Commission, Hart-Rudman Commission 
recommendations, that immediately after the September 11 
attacks just focusing attention on certain key areas was a 
useful exercise for the Nation. I think the need to get a 
strategy out quickly to mobilize the support was a good goal of 
the administration, but we're beyond that now.
    We're, as Mr. Schrock indicates, at a danger of 
complacency. We need to move toward the implementation stage. 
And that means the strategies have to firm up, they have to get 
sharper; and until we do that and provide some performance 
measurements we're not going to know whether the commitment of 
resources is really making it safer.
    Mr. Ruppersberger. It could have been because of September 
11 that the strategies were hastily written by the 
administration, in all fairness to them, because there was none 
before that, correct?
    Mr. Yim. I really am not----
    Mr. Ruppersberger. We're only trying to get to the end 
game, and that's the purpose.
    Do you feel, though, when we're dealing with strategies in 
these issues and especially such national strategies that 
before we come out with the strategies that we deal with the 
facts and data and get more data to come with a more concrete 
strategy than the way it is now?
    Mr. Yim. I think that's exactly right, sir.
    We do need now to move. When we move with implementation, 
it has to be supported with good data. That's not only data on 
risks and threats and intelligence data but on our 
infrastructure.
    Do we really know what our hospital infrastructure is 
capable of doing for a SARS attack or an avian bird flu virus?
    Do we really know what our power grids can do under certain 
situations, not only an attack but a human error that led to 
the cascading Northeast blackouts, and how quickly can they 
recover if there was an exerted--worm or virus being exerted 
into the system?
    We need better data. When I was in the Department of 
Defense, one of the things that really hindered us in doing our 
infrastructure recapitalization was a fundamental lack of data 
available. We didn't really know what we owned and what we 
controlled, and if you don't know that information--and in many 
senses we don't know exactly what the capabilities of the State 
and local and private sector are to respond or to be prepared 
in certain areas--it's very difficult to develop a strategy and 
to implement.
    Mr. Ruppersberger. And the local and State issue is a major 
issue, also, in bringing them all together?
    Mr. Yim. Yes.
    Mr. Ruppersberger. Thank you, Mr. Chairman.
    Mr. Shays. Thank you.
    At this time I recognize Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    I would echo Mr. Schrock's statement with respect to a 
national strategy on intelligence. Because certainly in reading 
the description of the various strategies, intelligence comes 
out in each of them; and as we talk about first responders and 
to agencies and, of course, agencies that are responsible for 
intelligence gathering, the coordinated effort both in 
gathering and dissemination of intelligence is really probably 
the most important aspect of our preparedness with respect to 
combating terrorism.
    You spoke about the issue of the strategies themselves and 
the lack of definitive information on the implementation for 
agencies and that--really looking at various strategies and the 
lanes they're in and how really, going forward, each agency 
might implement aspects of them. I'm interested in the 
coordination between strategies and agencies, to what extent 
the strategies provide guidance or to what extent the agencies 
are looking at the various strategies before them, coordinating 
their implementation of the strategies or even the agency's 
efforts with other agencies.
    Mr. Yim. That issue of horizontal integration among the 
Federal agencies is critical.
    When many Federal agencies look at strategies, they talk 
about their obligations under the GPRA-type of requirements. 
That's very narrowly agency focused. When we're talking about 
the Homeland Security Strategies, we're talking about issues 
that cross-cut over and above a particular agency's 
jurisdiction. When we are talking about preparedness for a 
bioterrorism event, it's not only HHS, it's DHS, it's going to 
be Justice, it's going to be DOD, it's going to be a variety of 
other agencies. So the key is the strategy would have to cross-
cut the agency jurisdictions.
    Do they do that enough? We found mixed results when we talk 
about who's in charge. Sometimes they talk about lead agencies, 
but sometimes they do not. Sometimes they don't add the time 
component. There may be a lead agency for prevention but a 
different agency for response or recoverability assessment.
    I think it's illustrative to look at the Homeland Security 
Presidential Directives that came out in December. I think they 
responded to some of the criticisms about the national 
strategy, and they were very specific. They said, you, 
Secretary of HHS, you, Secretary of DHS, you, Secretary of 
Energy, are to do these specific things, and you are to 
coordinate your activities in this specific manner, but the 
overall lead is ``X.''
    I think that is a good example of where we would like some 
of these strategies to head, because I think we have to 
recognize they cross-cut well beyond the ability of any single 
Federal agency and even the Federal Government.
    We need to talk about vertical integration. The Feds can't 
do it all. State and locals are going to have to do stuff.
    The private sector owns 80 percent of the critical 
infrastructure. They are going to have to do that, too.
    Mr. Turner. You talked about the issue of feedback as 
relates to implementation. Is there any presence of a mechanism 
for interagency feedback, where one agency who has needs from 
another that's not being met has an ability to accept within 
their own agency--cause it to be known of the need or the lack 
of response or the lack of implementation?
    Mr. Yim. We had raised some of our concerns about that.
    The Department of Homeland Security has an Interagency 
Coordinating Council, and they have that function. They also 
have a Homeland Security Advisory Council that includes State 
and local and private sector input to the development of their 
strategy, but sometimes they have to come up, butt heads, 
against other Cabinet agencies.
    How do you prioritize homeland security against education 
security, energy security, hospital, health care security, and 
where are those balancing decisions being made, the 
coordination? Of course, in the executive branch, in the White 
House, in the Homeland Security Council, perhaps? Is that in 
the National Economic Council?
    I think that still needs to be better clarified, and the 
Congress could provide I think great assistance in the 
balancing that needs to be occurring between very many--there 
are so many important priorities that this Nation has to 
address.
    Mr. Shays. I thank the gentleman.
    Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Yim, for your testimony and 
your report.
    I'm concerned about what I think is an apparent failure to 
integrate the strategic decisionmaking between international 
and national criteria objectives on that. Would you speak a 
little bit to that?
    It seems to me we have $10 million going to national 
missile defense, we have billions of other dollars going to 
weapons platforms that I think will look a little bit back 
toward the cold war as opposed to what we are going to do and 
only $1 billion in moneys allocated in port security against 
the possible introduction of nuclear materials in that manner. 
What should we do and how does this stack up in terms of 
international and national planning and what can we do to 
improve that aspect?
    Mr. Yim. I think many of our strategies understandably are 
inwardly focused right now because of the immediate response to 
September 11, but clearly what we need to talk about is 
borderless security.
    When we talk about border security, it really is a bit of 
an illusion. Our borders are--because of our society are 
designed to be free and open, to be easily passable through.
    We talk about cybersecurity. There is really no sense of a 
border. So if we're talking about borderless security, then we 
clearly would need international cooperation; and strategies 
need to address that.
    Obviously, we need to interdict a dirty bomb or a nuclear 
device in a cart or container before it arrives in the Port of 
Philadelphia or the Port of Los Angeles, and the only way we 
are going to get that is through the international cooperation.
    Now some of the strategies address that. The Combating 
Terrorism Strategy talks about involving the international 
community. The High-Level National Security Strategy talks 
about, well, if we're fighting terrorism, we not only need to 
defeat the existing terrorism, we have to prevent the growth of 
new terrorists by winning the, ``war of ideas.''
    Are we doing enough in that arena?
    Well, I think some of the international community may be 
dismayed that we are taking unilateral actions.
    Are our own protocols consistent with their business 
models, for example?
    I think that is a fundamental purpose of going toward some 
type of national standards and using an international systems 
type standard organization that specifically factors in the 
considerations of the international community and the U.S. 
community so that they are compatible.
    We depend upon foreign trade and export and import, so we 
must need the international cooperation for cargo security. We 
depend upon security, so we need the international cooperation 
for visas verification and terrorist watch.
    So I agree with you, sir, that definitely needs to be a 
component of each strategy. I think in this day and age we 
really do not have just a homeland security strategy. It really 
is a global strategy.
    Mr. Tierney. Did you see any evidence in your review of 
what's going on of any budgetary planning that cuts across the 
international and the national aspects of strategy; in other 
words, allocating our resources as between one and the other, 
going back to the example that I gave, where it seems entirely 
skewed?
    Mr. Yim. It's difficult to see that with enough 
granularity, because many of the activities deal with 
international topics, are dual purpose or multi-purpose 
activities. So it's hard to split out this particular funding 
for increase in Department of State staff or particular 
programs only designed to counterterrorism. They could only be 
part of the overseas economic development and economic 
assistance programs.
    So the answer is yes. If we need to have greater 
granularity, it's difficult in the way that the budgets are 
submitted to see that direct link between foreign support 
budgets and the counterterrorism activities.
    Mr. Tierney. Well, would you agree with me that the 
prospect of having somebody bring over a dirty bomb in a 
container of a ship is probably far more likely than somebody 
getting an intercontinental ballistic missile with it targeted 
and directed to the United States at this point in time?
    Mr. Yim. I'm sure that's correct. I'm sure the experts 
behind me would agree with me, also, sir.
    Mr. Tierney. So it would seem that we concentrate more on 
the former than the latter in terms of how we allocate our 
resources. Does that make sense to you.
    Mr. Yim. Absolutely. Some risk threat assessment is 
required.
    Mr. Tierney. And do you see that between international and 
other types of threats.
    Mr. Yim. Some of the strategies really only peripherally 
touch on that; and I think that is an area where we talked 
about integration, implementation.
    When we talked about integration, it wasn't just in the 
United States. It was definitely with the international 
community. That was one of the major issues that we flagged 
during our review. We definitely need improvement in that area.
    Mr. Tierney. Thank you.
    Mr. Shays. I thank the gentleman.
    Mr. Murphy.
    Mr. Murphy. Thank you, Mr. Chairman; and thank you, Mr. 
Yim.
    Mr. Yim. Thank you.
    Mr. Murphy. On the issues of intelligence and coordination 
intelligence, certainly within intelligence agencies one of the 
things they also must protect is horizontal and vertical 
distribution of information in order to keep information 
secret; and yet you have to know when to distribute it 
horizontally and vertically in order to allow other persons to 
act on that.
    Part of Homeland Security is to try to coordinate the 
efforts of FDICA, NCICA, NSA, etc. Of course, what is becoming 
clear in the news, too, is that many times we have--or in the 
last decade or so there's been depletion of perhaps agents or 
other folks who were able to gather active information, 
completely wiping out our ability from Asia, the continent of 
Africa and many areas in the Middle East; and we will suffer 
the consequences of that depletion for a while because we have 
not had eyes and ears on the ground. We have been relying on 
troop movements when we should have been looking at 
individuals.
    Given that integration of information, one of the things I 
look at on a local level is the question of where do we stand 
now in terms of getting accurate information to all the folks 
who are really seen as the first and last responders on the 
ground--the police, the fire, the hospitals--in being able to 
deal with these and to have accurate information. Because I 
think, as we see flights canceled from Europe, as we see alerts 
go up and down, we certainly don't want to have the public 
become compliant and unresponsive, which would only increase 
our risk, but, nonetheless, we want to make sure that they have 
trust and faith in information coming through.
    Where do we stand, in your assessment, on accurate 
information being gathered and accurate information being 
disseminated such as not to lead to complacency?
    Mr. Yim. I think that's a very common concern that we hear 
voiced to us from the State and local sector, the lack of 
detailed information that would allow them to stay specific 
actions. I mean, they have been critical of the color code, the 
terrorist threat advisory system, in being too non-specific, 
that they've asked for more region specific or sector specific 
information. They've pointed out that they don't need to 
compromise sources and methods, that the cop on the street 
doesn't need to know how the information was gathered but only 
whether you want me to look up or down under the bridge, etc., 
on the roadways, to take effective action.
    I think one of the additional concerns would be that people 
are unfamiliar with the intelligence community and the nature 
of the information that's being generated. They may lack the 
capabilities to analyze, certainly analyze, the raw data. So 
the information I think not only has to be a mechanism to 
provide it. They have to do some analysis to the type of 
information that will be provided, information that isn't going 
to require training to be able to analyze but information that 
could be actionable by a fire department chief, by a mayor, by 
a sheriff.
    I think we are going to overcome it; and, in fact, people 
are going to get flooded with the data they will receive. The 
key will be an analysis of the data, synthesis of it, to the 
extent it is useful.
    Mr. Murphy. Where do we stand in the timeline of reaching 
that goal?
    Mr. Yim. I think that has been one of the most common 
concerns of any--not any but one of the primary areas for 
additional attention and in setting some timelines for putting 
a plan, putting some metrics, as to what is being pumped out, 
getting feedback loops from State and local as to what 
information is most useful to them, what information they don't 
need. I think if we got that feedback we can overcome some of 
the sources and methods.
    Mr. Murphy. Are we weeks or months away from reaching that 
goal?
    Mr. Yim. I'm not sure I'm in a position to say, sir. I wish 
I could. On many of these areas, I think we're more--certainly, 
it's more a long term than it is a short term.
    Mr. Murphy. Thank you, Mr. Chairman.
    Mr. Shays. I was telling Mr. Ruppersberger that I'm happy 
I'm not in school, being tested on this; and yet I have a bit 
of guilt because this is so important. As one of our witnesses 
is going to say later, ready, fire, aim; and that's kind of 
what we did when we had the three commissions before us.
    They said there is a threat, you need to know the threat, 
you need to develop the strategy, you need to organize your 
government. It would clearly--and this is what Mr. Tierney, 
frankly, on this committee has argued more than anyone else, 
what's their strategy?
    What I am having a hard time wrestling with, and I'll kind 
of share some of my ignorance, which I do more often than I'd 
like, but when I look at the matrix, I look at seven 
strategies, national strategies, and I look at the national 
security.
    Do you have that in front of you?
    Mr. Yim. Yes, sir.
    Mr. Shays. I'm going to quickly run them down.
    National Security is NSC; Homeland Security, DHS, Combating 
Terrorism, NSC; Weapons of Mass Destruction, NSC; Physical 
Infrastructure, DHS; Secure Cyberspace, DHS; and Money 
Laundering, Treasury?
    Mr. Yim. Yes, sir.
    Mr. Shays. Now what I'm also learning from this is only 
National Security and Money Laundering were strategies we had 
developed before September 11.
    Mr. Yim. Yes, sir, that's correct.
    Mr. Shays. And what I have a sense is--yes?
    Mr. Yim. I think there had been iterations of strategies. 
They were only published--five of the strategies were published 
post-September 11. Only National Security and Money Laundering 
were actually published in this format prior to September 11.
    Mr. Shays. Well, I have a sense that we've gotten pretty 
lazy. In other words, the cold war threat we are pretty clear 
that it was containment, reactive nuclear destruction. What's 
unsettling for my constituents is that it's probably detection, 
prevention, maybe sometimes preemption, obviously based on 
better information than we had, and sometimes maybe the 
lateral, and I'm just talking in a general sense.
    When I look at National Security, the matrix that you have, 
purpose, scope, and methodology it does not address problem 
definition and risk assessment; does not address resources 
investment and risk management; does not address organizational 
roles and responsibilities and coordination; does not address 
integration and implementation; does not address--and only one 
is partially addressed, and that's goals, objectives, 
activities performance measures.
    Tell me why I shouldn't be hugely concerned about that.
    Mr. Yim. Again, what we were trying to avoid is to give a 
score card, an absolute measure.
    Mr. Shays. You don't have to give a score card on this.
    Mr. Yim. But the point would be that perhaps such a high-
level strategy--in fairness, in something at the top-level 
strategy, the National Security Strategy, it's not surprising 
that it would be vaguer or use more general language.
    However, we still have to ask that things have changed 
since 1947 when we first were required to develop a National 
Security Strategy. Things have changed since 1988, when the 
statutory requirements for the National Strategy were 
promulgated by this Congress.
    Have the world changes now, with the changing terrorist 
threat, the pace of technological development, required the 
strategies to become more specific?
    I think that is our general conclusion; and I think, yes, 
Mr. Chairman, you should be concerned that the National 
Security Strategy isn't as specific as some of the other ones 
are.
    Mr. Shays. Tell me this: Of the so-called desirable 
characteristics, which is the most important?
    Mr. Yim. Well, of course, we will say that all are 
important or we wouldn't--but to answer your question 
seriously, we would say that the resource investments and the 
performance metrics ones are the keys.
    You have to be able to sustain the effort. It's not enough 
to have high-level goals if the money isn't going to follow 
along. If people aren't going to invest the money, the people, 
the prioritization to achieving those objectives and if that is 
the most important objectives you want people to implement, 
then you have to have some way of telling whether or not they 
are spending their money correctly, and that's why the 
performance measurements--
    Mr. Shays. Give me another one that's most important, 
second one that's way up there.
    Mr. Yim. I think integration is the key. We talked about if 
you consider homeland security as a stand-alone item, it's 
going to be enormously expensive.
    Mr. Shays. So I would have picked out goals, objectives, 
activities and performance measurements. That's what I would 
have picked as No. 1. Tell me why that doesn't top the two that 
you mentioned.
    Mr. Yim. Again, it's difficult for me, but because I 
believe that where we're focused on implementation--it's a 
question for us--is can we afford to do everything people are 
identifying that needs to be done?
    Mr. Shays. Right.
    Mr. Yim. It's fine to set goals and objectives, but the 
reality is we are not going to be able to achieve all of those 
goals and objectives immediately, so how we resource and set 
priorities I think is going to be the key, Mr. Chairman.
    Mr. Shays. Tell me which is the least important of that 
group. I mean, they're all important, but which is the least 
important?
    Mr. Yim. I think every strategy has a general purpose 
statement, so in terms of utility to the user, something that 
says promote the common defense, ensure domestic tranquility, 
that's a burden of proof statement that would have been 
addressed in our criteria.
    Mr. Shays. Purpose and scope?
    Mr. Yim. Purpose and scope--
    Mr. Shays. I'm sorry, is that the one you said?
    Mr. Yim. That's the one I said--
    Mr. Shays. I understand they're all important.
    Then tell me--oh, jeez.
    Let me just ask you: I just was verifying that I was 
looking at the matrix; and my staff said, ``Yes.'' I was 
looking at the matrix on page 2, and then I said on figure 1 on 
page 8 what am I looking at? And the comment was a mess, a 
chart that is hard to understand.
    Do you want to break this down in a Top Secret briefing or 
do you want to just quickly tell us what that means--a strategy 
of hierarchy?
    Mr. Yim. When we put that graphic out, people said, you put 
a dunce cap in your testimony. We would prefer to consider it a 
wizard's cap, Mr. Chairman, but basically what we're trying to 
point out is that there is a hierarchy. We expect that the 
strategies are not the ``be all and end all,'' that we expect 
the strategies to have some general statements, to be at the 
top of that cone or pyramid and that we expect that the 
responsible parties charged with implementation are going to 
develop further documentation, and it's going to get more 
granularity as you move down the cone.
    So as you move from the top of the cone, the National 
Security Strategy, to implementing documents such as the 
Homeland Security Presidential Directives to specific agency 
strategies, that's as you move down the cone, you're getting 
more specificity and you would demand more performance 
measures.
    Mr. Shays. Are there Members that have another question of 
this panel?
    Mr. Schrock. Yes.
    Mr. Shays. Before you go, I want you to tell me, are there 
any national strategies that have been left out, plus the eight 
which we are going to have under closed door; but if you could 
just start to think about what strategies should be there that 
are not. Ed, why don't you go. Is that all right?
    Mr. Schrock. Just a couple quick comments, Mr. Yim. We were 
talking about the hierarchy could be the problem. Is the 
strategy the point or the mentality of the bureaucracy to put 
this together? You mentioned a couple of times the coordination 
of the agencies, the butting of the heads of Cabinet members, 
everybody has their own turf and nobody wants to give it up. Is 
that the problem?
    Mr. Yim. I think that is one problem that the strategies 
have to address.
    Mr. Schrock. How do we solve it?
    Mr. Yim. I think that there needs to be a clear directive 
to our Federal agencies that they must admit that certain 
things are beyond their jurisdiction and scope, they must rely 
upon others to assist in these areas; that it is not 
exclusively the province--homeland security is not exclusively 
the province of a particular agency, a Cabinet Secretary or 
Department and that a topic like bioterrorism is going to 
overwhelm the resources of a single agency. That is the value 
of a strategy. How we make that realization come to pass has 
been a classic question.
    Mr. Schrock. Clear directive from whom?
    Mr. Yim. I think the administration clearly has that 
responsibility.
    Mr. Schrock. The President of the United States?
    Mr. Yim. Yes.
    Mr. Schrock. You talked about a borderless society. We all 
love that. The fact is that is probably never going to happen 
again. How much interaction or coordination in this effort do 
you think needs to be made with some of our allies, some of our 
partners in this, a little, a whole bunch, none?
    Mr. Yim. I think that is going to be a crucial aspect of 
it. The burden of defeating terrorism on a global scale is not 
going to be able to be met solely by the United States.
    Mr. Shays. Could you say that again?
    Mr. Yim. The burden of fighting terrorism on a global scale 
cannot be met solely by the United States. And certainly the 
impact of terrorists' attacks is not only felt by the United 
States even if the attack was only on U.S. soil. We know that 
47, 50 or so countries had citizens in the World Trade Center 
attacks. The financial market ramifications were extended well 
beyond the U.S.' financial systems. So the international 
community being aligned in the fight against terrorism is going 
to be crucial.
    Mr. Schrock. Thank you, Mr. Chairman.
    Mr. Shays. Could I ask you on that point, I want you to say 
it again, and I want you to tell me under what basis you can 
say it. I happen to believe it, but I believe it intuitively. 
Is it so obvious that it stares us in the face, or is there 
work to be done that says categorically you can make that 
statement?
    Mr. Yim. I think we can use examples. The cargo container 
security work that we have been doing, Mr. Chairman, could not 
be done--we can't interdict all of the cargoes without 
cooperation from the superports in the foreign areas telling us 
what is going in or having some protocols to secure who's 
loading what onto those containers. And containers aren't the 
only problem. There are great bulk carriers that are coming in, 
too. You could put a bomb in a grain ship as well as a 
container ship. When we talk about cybersecurity, we certainly 
know that it's not just that.
    Mr. Shays. Thank you for your patience.
    Mr. Ruppersberger. I do agree with the issues.
    Bottom line questions: First, what are some scenarios--and 
I'm not sure where you can answer this--where poor risk 
management could lead to being unprepared against terrorist 
acts?
    Mr. Yim. I think that there are several scenarios that we 
have. When we talk about, for example, the bioterrorism attack 
in an urban area, poor risk management leads to everyone trying 
to do the same things. So we can have a lot of different 
entities begin to stockpile chemical, biological protective 
suits as the military did following the gulf war in 1991. And 
we can come back 7 years later in 1998 in the military and find 
that the shelf life had expired in most of those suits and our 
protection was illusory.
    I think if we don't have coordinated activities, we may 
have the illusion of greater preparedness, but not the actual 
reality of being able to fulfill the responsibilities. I think 
that is an example, sir, that is very troubling for us. People 
need to enhance capabilities over a long period of time, not 
just the capability to do something within a particular budget 
cycle.
    Mr. Ruppersberger. Any other examples?
    Mr. Yim. I think cyberterrorism--that if we have systems 
that have identified security holes, and that we don't have 
coordination so that there can be cascading impacts, or that 
the vulnerabilities are not clearly made known because people 
wish to hold back that information for whatever reason, their 
share value, etc., that we could have significant impacts from 
a lack of coordination.
    Mr. Ruppersberger. Wouldn't you say that a terrorist act 
has clearly a cascading effect in other population centers, 
financial markets, infrastructure? Are we prepared, do you 
think, based on that scenario at the local and State level?
    Mr. Yim. I think we are not to the extent that we should be 
because we have not completed in general the vulnerability 
assessments that are required. There are some vulnerability 
assessments that are being done. It is 2 years after September 
11 and 5 years after many of the commissions have recommended 
or identified terrorism as a major threat. We really need to 
expedite these vulnerability assessments.
    Mr. Ruppersberger. Another question: Which agencies in 
particular bear the greatest risk with the fewest resources?
    Mr. Yim. We have just seen the 2005 submission. We've seen 
which ones got plussed up and which ones did not a bit. 
Certainly the Department of Homeland Security is getting, in 
certain areas, increased funding and some downgrades in others.
    I think the Department has been under tremendous stress 
with this reorganization. I know when we have talked to members 
of the other Departments, they are not fully staffed in many 
ways. They are having difficulties responding to some of the 
deadlines that are self-imposed as well as externally imposed. 
And they're talking about, well, we just don't have all of the 
management structure or resources in place. I think that's an 
area that needs to be looked at.
    Mr. Ruppersberger. Based on the President's budget that was 
submitted yesterday, what areas in homeland security do you 
feel were cut that would have a negative impact on our 
security?
    Mr. Yim. Just with this, I know there has been a great 
concern about the way that money is going to be distributed to 
emergency and first responders, State and local. There have 
been a lot of debates about trying to have that on a risk 
management basis as opposed to purely a per capita or fair 
share type based on population approach. I think that is an 
issue that bears a lot of watching. Are we funding enough for 
preparedness at the State and local and private sector, and is 
it going to the areas that, based on good intelligence data, 
deserve to receive?
    Mr. Ruppersberger. Based on the cuts in the first 
responders, what negative impact do you feel that would have on 
national security?
    Mr. Yim. Certainly any event is going to be local. Everyone 
uses that phrase. I believe that wholeheartedly. We need to 
have our State, local and private sector to be prepared for a 
wide variety of hazards. If we're not, I think the whole Nation 
suffers.
    Mr. Ruppersberger. If you would be able to recommend to the 
President to reconsider that cut, what would your main argument 
be?
    Mr. Yim. Again, I don't have enough details on the 
specifics and the justification, but certainly when we talk to 
State, local and private sector, that's the people that 
Congress and the administration serves.
    Mr. Ruppersberger. Training, equipment.
    Mr. Yim. Training, equipment. It's not only that, but 
generally being prepared to deal with a wide range of events. 
And the same type of preparedness in the Midwest for a tornado 
is going to help us in an explosive attack. The same level of 
preparedness in California for an earthquake is going to help 
us on a wide range of attacks.
    Mr. Ruppersberger. I represent Maryland's Second 
Congressional District, city of Baltimore, port of Baltimore, 
BWI Airport, the tunnels, but one of the--and we did a survey 
on who had received moneys from Homeland Security, and we 
checked with every volunteer, career, police departments, all 
the different areas, and this was about maybe 8 months ago, and 
I believe the results of the survey was over 73 percent of all 
those entities had not received a penny from Homeland Security.
    But more importantly as it relates to your comment, it 
seems to me that the No. 1 issue that I personally received 
from this survey from the police, fire, paramedics was the 
inability to communicate with different systems of 
communication. And that is very important in a crisis. And New 
York City, as an example, the Pentagon and different agencies 
come together. Have you had the occasion to look at that, and 
what is your opinion as far as the underfunding of that topic?
    Mr. Yim. Our infrastructure technology team has looked at 
that and the issue of bandwidth and what frequencies and 
compatibility of the communication equipment the people have 
studied. The World Trade Center identified areas in which the 
first responders, because of incompatible equipment, did not 
know--people inside the towers did not know what the people 
outside knew and therefore did not receive some of the 
warnings. That will continue to be a problem.
    Are we confident? I think our IT team is fairly confident 
that technology will be able to solve that problem. What they 
are concerned about and what we are concerned about is once we 
are able to talk to each other, what are people going to say to 
each other; what information are they sharing; what activities 
are they going to be using to coordinate once they can 
physically talk to each other.
    So the immediate problem, yes, enable communications, 
interoperability absolutely; but we have to address what are 
they going to say when they can talk to each other.
    Mr. Shays. This is our second hearing.
    Mr. Ruppersberger. We have had a lot of witnesses before 
this committee, but I think he's very direct in answering the 
questions.
    Mr. Schrock. He sure is.
    Mr. Shays. I agree with the gentleman. This is our second 
hearing now on strategies. We had a hearing on standards. And 
Mr. Ruppersberger as well as others in this committee, we put 
our name on legislation, and it's now part of the draft of the 
Select Committee on Homeland Security saying to DHS that 
they've got to establish standards and get them set up sooner.
    So, for instance, in my State, I had asked local 
communities what had they gotten from the Department of 
Homeland Security, and they said, no, until I did a little more 
investigation. And what happens, the Department of Homeland 
Security had given a substantial sum to the State, and the 
State had given every department--they had viewed before they 
set up standards that everyone, fire, police, first selectmen, 
mayors, all needed better radio equipment. Then protective gear 
got out to a lot of the communities. And they were getting it 
from the States, and they didn't realize it was a pass-through.
    Our point, and I think it's your point as well, and this is 
what I was going to ask you, sir, so it's a nice lead-in, you 
also specialize in the whole issue of standards besides 
strategies. What is or should be the relationship between 
national standards and national strategies?
    Mr. Yim. I think there is a key relationship, and I wish to 
be sure when we talk about standards--many people talk about 
individual product or equipment standards. That is an important 
aspect; an example, the thickness of a Kevlar vest. You were 
talking about systems standards.
    Mr. Shays. Why should Westport, CT, get the same as 
Stamford, CT, or why should a small town in Connecticut like 
Canaan up north be getting anything necessarily?
    Mr. Yim. That is the goal of national management or systems 
standards. What you want to identify is that everybody should 
not be doing the same thing. They should be doing slightly 
different things, and we have to be developing capabilities. 
They may be resident in different entities or different 
locations, but there has to be some way to mobilize that 
capability together in a time of crisis or contingency.
    That is the beauty of national standards. National 
standards based on the ISO, the International Standards 
Organization, or the American ANSI standards, they were 
designed in the manufacturing business, in all honesty, and I 
think that is a great analogy for Homeland Security. When Ford 
Motor Co.--in looking at its business model, they had to rely 
on a whole bunch of people in the chain of command. They had to 
adhere to certain standards as to the quality of the material 
and the tensile strength. The part suppliers, they had to 
adhere to certain standards so when it was incorporated into 
your Ford, that it operated as expected efficiently. They could 
rely upon that.
    That same standards approach could link the Feds, State and 
local together. We assign responsibilities to the private 
sector. We give them performance measurements and self-
certification to standards, can you meet them on a consistent, 
reliable basis so we can depend upon them coming to the table 
when the Feds need them or the States need them. I think that's 
the key.
    Mr. Shays. Is it realistic to expect these strategies that 
we have been talking about to yield to an overarching concept 
like containment to guide the long-term effort against 
terrorism?
    Mr. Yim. I think that goes back to the classic feeling that 
where you sit determines what is the most important thing to 
you. Where you sit on certain areas, containment may be the 
most important. Where you sit in other areas, response and 
recovery may be the most important. I don't think that right 
that we have some sort of overarching goal, because I think 
different parts of our sectors, government and society have 
different priorities, and the strategies have to be flexible 
enough to recognize those differences.
    Mr. Shays. I don't know if I agree with you, but then again 
I don't have any basis to disagree. It would seem to me that 
you're going to want--I want to ultimately have a sense--are 
you saying this? Are you saying the good old days of the cold 
war don't allow us to have a fairly concise sense of strategy? 
I mean, I worked for a year on what we should do to help 
cities, and we had pages and pages, and it just got bigger, and 
then it came down in the end to one thing: We needed to bring 
businesses in to create jobs and pay taxes.
    What I'm asking is, after we develop all these strategies, 
are we going to find some kernels that are going to be found in 
each one of these strategies that will be--that is what I'm 
asking.
    Mr. Yim. I would not disagree with that. I think there are 
some overarching drivers that should be there.
    Mr. Tierney. I wanted to say something. I'm shocked to 
think that you would think a Governor is passing out Federal 
money without letting people know. What Governors are we 
talking about?
    Mr. Yim, this month, the Assistant Secretary For 
Infrastructure and Protection at the Department of Homeland 
Security stated that the comprehensive terrorist threat and 
vulnerability assessment is unlikely to be completed in the 
next 5 years. What can we do to speed that up, and ought we not 
be focusing on trying to get something before 5 years are up?
    Mr. Yim. I think that most experts would agree that we 
hopefully will have the luxury of 5 years, but it's unlikely 
we'll have the luxury of 5 years. Definitely, how do we enforce 
greater timelines? We obviously don't want a bad product, but 
it doesn't have to be all or nothing. There are many phases 
that could be put in to a vulnerability assessment and break it 
down into manageable chunks, set some milestones. If 5 years is 
the end state, maybe we ought to live with that, but that 
doesn't mean nothing can be done or measured within that 5-year 
period of time. So even if we had a 5-year goal, what is the 6-
month goal, what is the 1-year goal, what is deliverable in 2 
years, and how often are you going to refresh that?
    I think that is the real focus, not on the ultimate end 
state, the timeframe for the ultimate end state. We may never 
have an ultimate end state. In 5 years, that is an eon in 
Washington, DC. It is an eon for most agencies and certainly 
beyond the life of a political appointee's life. In light of 
that, I think you have to set interim steps, and that's one of 
the deficiencies we pointed out.
    Mr. Tierney. On the homeland security issues, do you see 
any importance to educating the local populace with respect to 
reaction to an event? Do you see that as part of the strategy 
in homeland security? And where do you put that in the level of 
importance with other things we might do?
    Mr. Yim. I think the communication strategy and the 
education strategy is vitally important. Our citizens have to 
have confidence in the ability of our governments to protect 
themselves. If you look back at the anthrax attacks immediately 
following in October 2001 and the somewhat confusing 
information that was promulgated, I think that needlessly 
alarmed or caused people to take actions that perhaps were not 
only unnecessary, but may have been counterproductive. The 
broadband use of--or the widespread use of a broadband 
antibiotic could have other deleterious effects.
    And information--I think to the education, what people need 
to do for their own protection how they interact with other 
people, things that they can't do, there's no way that I'm 
going to be able to protect against a nuclear attack or even be 
able to really protect myself against a nuclear attack, and I'm 
just going to have to live with that, but other things I could 
do.
    Mr. Tierney. Did you see much of that in the Homeland 
Security Strategy?
    Mr. Yim. It doesn't get down to that level of granularity. 
I think the National Security Strategy talks about an education 
component. I don't recall that any of the other strategies deal 
with an education component, and I think that's a gap.
    Mr. Tierney. Thank you, Mr. Chairman.
    Mr. Shays. Mr. Schrock.
    Mr. Schrock. Mr. Yim, the chairman said that--he talked 
about Stamford, CT, and talked about Canaan, CT, and I thought 
I heard you say maybe everybody doesn't need to be doing the 
same thing, which indicated to me that you thought maybe the 
small towns didn't need to worry as much as some of the bigger 
areas. But over the holidays, while the big areas were getting 
a lot of chatter, the Town of Tappahannock, VA--it is a 
wonderful little town, very, very small town, and there was a 
lot of chatter that was going to be a target. Now if something 
had happened there, what does that say for every little berg 
and town in America? It is out in the beautiful boondocks, I 
should say, but it's a magnificent place. But what does that 
say for other little towns that might think, oh, my gosh, now 
we are going to be targets, because towns in the Midwest think 
they are safe, and they are not.
    Mr. Yim. I think there are some minimal levels of 
preparedness that no matter where you are, we would expect our 
towns to be able to respond in certain matters, and because of 
resource constraints or their location, maybe the only thing we 
are asking them to do is do a holding action until other 
resources can be mobilized and arrive. I think that's part of 
the strategy development. You can't expect that small town to 
defeat a major bioterrorism attack, but maybe they can triage 
the patients and hold them in isolation for 48 hours until 
something can arrive.
    Mr. Schrock. Mr. Ruppersberger talked about the ports. Port 
security is my No. 1 issue. I represent the Port of Hampton 
Roads, which is the Norfolk, Virginia Beach area, and every 
ship that comes into the massive port has to pass by the 
largest naval base in the world. And I worry about somebody 
trying to sneak a major container ship behind our piers and 
lock our ships in, sort of like what they did in Pearl Harbor.
    But the good news is the port of Hampton Roads has been the 
guinea pig, and I think a very good guinea pig, for all this 
new equipment to test all the containers and the trains that 
come in and out of there with some absolutely incredible 
results, and it is the only port in America that has it right 
now. And the test results are so good, I can see it going to 
other ports as well. Frank and I went down there a few weeks 
ago, and I was amazed at the progress.
    The bad news is they have to pass by the Navy before they 
get there. The good news: They are being screened if they think 
something is wrong. The port of embarkation is where everything 
needs to be.
    Thank you, Mr. Chairman.
    Mr. Shays. Mr. Murphy, are you all done?
    Thank you very much. You have been a wonderful witness, and 
I'm assuming you or someone from your staff will be able to 
hear the panelists.
    Mr. Yim. I will stay myself.
    Mr. Shays. We are going to invite you to come back and make 
some comments, so don't fall asleep during that second panel. 
Thank you very much.
    Our second panel is comprised of four individuals: Dr. Lani 
Kass, professor of military strategy and operations, National 
War College; David H. McIntyre, former dean of faculty, 
National Defense University; Colonel Randall J. Larsen, U.S. 
Air Force, retired, CEO of Homeland Security Associates; Mr. 
Frank Cilluffo, associate vice president for homeland security, 
the George Washington University.
    You just stay standing. We will swear you in.
    [Witnesses sworn.]
    Mr. Shays. Our witnesses have responded in the affirmative, 
I'm sorry you are kind of crunched in. We are going to start as 
you are on the table. Dr. Kass, we will go with you first, and 
we will do the 5 minutes. We would like you to stay somewhat 
within the 5 minutes, but we could go over to the next 5. We 
prefer it closer to 5. You have the floor, Dr. Kass.

  STATEMENTS OF LANI KASS, PROFESSOR OF MILITARY STRATEGY AND 
  OPERATIONS, NATIONAL WAR COLLEGE; DAVID H. McINTYRE, FORMER 
   DEAN OF FACULTY, NATIONAL DEFENSE UNIVERSITY; RANDALL, J. 
LARSEN, COLONEL, USAF (RET), CEO, HOMELAND SECURITY ASSOCIATES; 
   AND FRANK CILLUFFO, ASSOCIATE VICE PRESIDENT FOR HOMELAND 
           SECURITY, THE GEORGE WASHINGTON UNIVERSITY

    Dr. Kass. Thank you, Mr. Chairman, gentlemen. I'm an 
American by choice rather than the fortune of birth. I'm 
particularly honored to be here. And I'm going to avail myself 
of your generosity of a little bit more time because otherwise 
I will require English subtitles.
    The views I'm about to present are my own. They reflect 
over 20 years experience as a teacher and practitioner of 
strategy. They do not necessarily reflect official positions of 
the U.S. Government.
    Let me start with a quick historic vignette, if I could. In 
May 1863, on the eve of the Battle of Chancellorsville, General 
Joe Hooker, Commander of the Union Army of the Potomac, said, 
``My plans are perfect. May God have mercy on General Lee, for 
I shall have none.'' General Hooker's overconfidence had 
immediate mid and long-term consequences. First, he was crushed 
by General Lee. Second, he was fired by President Lincoln. 
Third, General Hooker did not go down in history as a great 
strategist. Instead his name became a synonym for, shall we 
say, certain ladies of the evening.
    Mr. Shays. You didn't tell me you were going to be 
entertaining.
    Dr. Kass. The joint lesson, Mr. Chairman, is that humility 
is a virtue when assessing strategic plans, your own or anybody 
else's. That is so because, simply put, strategy is hard to do. 
Strategy seeks to balance ways and means. It seeks to mitigate 
risk. It seeks to account for current imperatives, future 
contingencies and unpredictable dynamics of human behavior. 
Thus it operates in a realm where chance and fog and friction 
and ambiguity dominate. Everything in war is very simple, but 
the simplest things are difficult.
    Strategy guides action. It needs to be translatable into a 
series of implementing plans, but it cannot be so specific as 
to delve into tactics. It is supposed to provide vision. It is 
supposed to provide what in the military is called commander's 
intent.
    Strategic effectiveness--and, Mr. Chairman, you asked about 
that--comes from a synchronized effort sustained over the long 
term and guided by a clear vision of what it is you are trying 
to accomplish, what is called the desired end state; in other 
words, how do you want the situation to look when you are done 
doing what it is that you are doing.
    Foresight and flexibility are the keys to success. So is 
the ability to integrate a wide variety of variables into a 
coherent whole. In short, Mr. Chairman, this kind of holistic 
thinking is pretty uncommon primarily because it is so 
difficult. A logical systematic approach is the necessary first 
step.
    I provided the committee with what we use at the National 
War College to educate the Nation's future strategic leaders. 
Hopefully it will help you and your staff ask the difficult 
questions that need to be asked when evaluating any strategic 
design.
    The first strategic question and the most comprehensive is 
to assess, to understand the nature of the war you're engaging 
in. What then is the nature, the character of the war we are 
engaged in? And I will focus the rest of my remarks on this.
    Clearly terrorism is not new. It has been with us for a 
very long time. What is new is that modern technology has 
provided individuals with destructive power which up until now 
was the sole domain of advanced militaries. What is also new is 
that choice can now operate on the global scale in pursuit of 
global objectives. With the world as their battleground and 
globalization as their enabler, they seek to destroy the 
American way of life and the international system we lead; 
that, Mr. Chairman, what we are fighting is an insurgency of 
global proportions, what I would term a pansurgency. This 
insurgency is not tied to geographic boundaries. Instead it 
operates in nontraditional domains using nontraditional means 
clearly and bound by accepted norms of civilized behavior. This 
insurgency has invoked a legion to declare war on the United 
States and to mobilize the sympathies of 1.5 billion Muslims.
    The breathtaking scope of the insurgent goals is matched by 
their desire to inflict casualties virtually anywhere on the 
planet. They seek weapons of mass destruction and would not 
hesitate to use them. They are willing to destroy everything 
and die trying. They're well financed, exquisitely networked, 
adaptive, flexible and patient. They also know us much better 
than we know them.
    The ultimate defeat of this global insurgency will only 
come from the synchronized application of all instruments of 
national power guided by an overarching strategic design and 
not a practical plan. We must defeat terrorist organizations 
which have global reach. We must deny them sanctuary and State 
support. We must diminish the conditions that allow terrorism 
to flourish. And we must do all that while defending the 
homeland. So what we're talking about is a multidimensional 
strategy which fuses offensive and defensive and integrates all 
elements of national power.
    Mr. Chairman, I truly believe that terrorism is the 
societal evil of our time. The war on terrorism is our 
generation's greatest challenge. This evil must be abolished 
just like slavery, like piracy, like genocide. We are engaged 
in a war which demands the long-term commitment of the Nation's 
will, blood and treasure. It also demands a consistent, focused 
strategy to achieve the end state of abolishment of terrorism. 
That does not mean every individual act. Slavery was abolished 
a long time ago, and there is still slavery, piracy and 
genocide in the world. But that is the end state we should 
strive to. And the mission of any current strategy is to 
provide you this overarching end state that you are trying to 
achieve.
    The American people and your elected representatives should 
not expect a quick or easy victory. I believe World War II and 
the cold war are pretty useful to think about in terms of the 
scope and magnitude and duration of the fight we are engaged 
in. The war on terrorism is a war of necessity which we must 
win.
    Mr. Shays. Thank you very much.
    [Note.--The National War College report entitled, 
``Combating Terrorism in a Globalized World,'' may be found in 
subcommittee files.]
    [The prepared statement of Dr. Kass follows:]

    [GRAPHIC] [TIFF OMITTED] T4017.053
    
    [GRAPHIC] [TIFF OMITTED] T4017.054
    
    [GRAPHIC] [TIFF OMITTED] T4017.055
    
    [GRAPHIC] [TIFF OMITTED] T4017.056
    
    [GRAPHIC] [TIFF OMITTED] T4017.057
    
    [GRAPHIC] [TIFF OMITTED] T4017.058
    
    [GRAPHIC] [TIFF OMITTED] T4017.059
    
    [GRAPHIC] [TIFF OMITTED] T4017.060
    
    [GRAPHIC] [TIFF OMITTED] T4017.061
    
    [GRAPHIC] [TIFF OMITTED] T4017.062
    
    [GRAPHIC] [TIFF OMITTED] T4017.063
    
    [GRAPHIC] [TIFF OMITTED] T4017.064
    
    [GRAPHIC] [TIFF OMITTED] T4017.065
    
    [GRAPHIC] [TIFF OMITTED] T4017.066
    
    [GRAPHIC] [TIFF OMITTED] T4017.067
    
    [GRAPHIC] [TIFF OMITTED] T4017.068
    
    [GRAPHIC] [TIFF OMITTED] T4017.069
    
    [GRAPHIC] [TIFF OMITTED] T4017.070
    
    [GRAPHIC] [TIFF OMITTED] T4017.071
    
    [GRAPHIC] [TIFF OMITTED] T4017.072
    
    [GRAPHIC] [TIFF OMITTED] T4017.073
    
    [GRAPHIC] [TIFF OMITTED] T4017.074
    
    [GRAPHIC] [TIFF OMITTED] T4017.075
    
    [GRAPHIC] [TIFF OMITTED] T4017.076
    
    [GRAPHIC] [TIFF OMITTED] T4017.077
    
    [GRAPHIC] [TIFF OMITTED] T4017.078
    
    [GRAPHIC] [TIFF OMITTED] T4017.079
    
    [GRAPHIC] [TIFF OMITTED] T4017.080
    
    [GRAPHIC] [TIFF OMITTED] T4017.081
    
    [GRAPHIC] [TIFF OMITTED] T4017.082
    
    [GRAPHIC] [TIFF OMITTED] T4017.083
    
    [GRAPHIC] [TIFF OMITTED] T4017.084
    
    Mr. Shays. I have to say you are the most honest witness I 
have ever had, because usually when I say you have 5 minutes 
and please don't roll over another 5, everyone says, well, I 
will try to stay within the 5 minutes. And you just said, I'm 
not even going to try to stay within the 5 minutes, so I think 
you got away with it because of your unique accent.
    Dr. McIntyre.
    Dr. McIntyre. I will try to stay within the 5 minutes even 
though my accent is from Texas.
    Mr. Chairman and members of the committee, I want to thank 
you for the opportunity to testify today on the important 
subject of our strategies for national security and homeland 
security in the war against terrorism, and I want to thank you 
in particular for the work this committee has done on this 
subject in the past.
    The United States is involved in a new, long war for its 
survival, but it does not feel like war, so voters don't always 
give full credit to the elected officials and appointed 
officials who wage it and oversee it. I suspect the members of 
this committee do not always get the credit due them for the 
effort spent on these subjects so critical to the long-term 
destiny of our Nation. As a former military officer and current 
student of strategy who spent long years studying what happened 
to nations contemptuous of strategic realities, let me thank 
you for your efforts in this field.
    In my written statement I have tried to do what you asked, 
use my 36 years of strategic and military experience to conduct 
an analysis of the family of strategies prepared by this 
administration, evaluate their adequacies both individually and 
collectively, so I will only summarize.
    I think the administration's approach to offering a family 
of strategies to formally lay out their goals in many areas and 
their concepts for achieving those goals is an admirable one. I 
recognized what they're doing immediately. It looks like every 
major military plan I have ever seen. I am not uncomfortable 
with what some have called the proliferation of strategies.
    I will give you five brief points we will have to address 
as time proceeds and we look to refine our strategies. No. 1, 
we must clarify the fact that in the short run this is about 
managing dangers to America and attacks upon Americans, not 
eliminating them. In a world where technology gives big weapons 
to small people, we cannot eliminate every threat. Some 
attackers will get through. Some innocent people will become 
casualties. This is not failure, this is reality. We need to 
prepare the American people for this reality.
    No. 2, clarifying the forcing function that will eventually 
reduce or eliminate terrorist attacks on America is key. This 
is a tough one because it involves changing the nature of the 
enemy. We have to cause him to lose hope of victory through 
what he's doing and accept some alternative solution to his 
grievances. This is not even easy to conceptualize, certainly 
not easy to do, but this is the essence of the long-term 
victory.
    No. 3, because we cannot kill every potential enemy and 
protect every potential target, we must prioritize our spending 
and our efforts. I recommend that our highest priority go to 
preventing and responding to the types of high consequences of 
attacks that will be the most damaging to the Nation as a 
whole. Without a set of public priorities, we will be drawn 
constantly forward to expanded actions overseas and expanded 
spending at home. The biggest problem in this war will be 
knowing where to stop. We need to set these priorities in 
public.
    No. 4, we must give more attention to the enemy. Many 
people and even some experts are still operating under the cold 
war assumption that our enemies' grievances have to do with 
economics and the distribution of wealth. That is fighting the 
last war. This war is about ideology and legitimacy. In the 
long run, we are going to have to offer an alternative to the 
enemy's ideology. I am not confident that we have yet 
considered the implications of that fact.
    And finally, we must understand that this war will be waged 
over generations. We cannot win it if we change our underlying 
strategies every time we change administrations. During the 
cold war, we pursued a strategy of containment for 40 years 
through a variety of administrations. The actions, the 
priorities, the expenditures changed from administration to 
administration, but not the underlying strategic concept that 
by denying communism growth and additional resources we would 
doom it.
    As in the cold war, we need strategies that will stand the 
test of time. They must be bipartisan strategies that can 
garner support across party and ideological lines, and that is 
why the work of this committee is so important. Thank you again 
for your efforts in this regard and for the opportunity to 
contribute to that effort.
    Mr. Shays. Thank you very much.
    [The prepared statement of Dr. McIntyre follows:]

    [GRAPHIC] [TIFF OMITTED] T4017.085
    
    [GRAPHIC] [TIFF OMITTED] T4017.086
    
    [GRAPHIC] [TIFF OMITTED] T4017.087
    
    [GRAPHIC] [TIFF OMITTED] T4017.088
    
    [GRAPHIC] [TIFF OMITTED] T4017.089
    
    [GRAPHIC] [TIFF OMITTED] T4017.090
    
    [GRAPHIC] [TIFF OMITTED] T4017.091
    
    [GRAPHIC] [TIFF OMITTED] T4017.092
    
    [GRAPHIC] [TIFF OMITTED] T4017.093
    
    [GRAPHIC] [TIFF OMITTED] T4017.094
    
    [GRAPHIC] [TIFF OMITTED] T4017.095
    
    [GRAPHIC] [TIFF OMITTED] T4017.096
    
    [GRAPHIC] [TIFF OMITTED] T4017.097
    
    [GRAPHIC] [TIFF OMITTED] T4017.098
    
    [GRAPHIC] [TIFF OMITTED] T4017.099
    
    Mr. Shays. I just want to say that one of my 
disappointments is that we haven't truly had the kind of debate 
that can bring both parties together to establish what should 
be that bipartisan strategy. Very interesting. Thank you for 
the indulgence of the committee to make that comment.
    Colonel Larsen.
    Colonel Larsen. Mr. Chairman and members, thank you for the 
opportunity to provide my assessment of these strategies. I 
looked at six. I didn't look at money laundering or the 
classified military strategy. As I said in my prepared 
statement, I taught strategy at the National War College, and 
we always told students how important the strategy is, but 
also, how difficult it is to develop in this town. Plans, which 
we heard a lot of this morning, and spending programs are 
easier to write and understandably so, strategy is difficult. 
Therefore, sometimes we end up with what the chairman refers to 
as ready, shoot, aim.
    Looking at the six strategies, I thought there were some 
good plans in there. What I thought was missing was a single 
unifying theme that integrates all missions that were talked 
about this morning from deterrence, prevention, preemption, to 
incident management, and all participants. That is what is so 
different; from the President to the police officer, from a 
Member of Congress to a mayor, from a Cabinet Secretary to a 
soldier, a public health officer and a corporate CEO. That is 
what we do not have. Some would say that's not possible today. 
I disagree, and I think the members of the panel would disagree 
with this also.
    In 1947, it has been mentioned, George Kennan gave us a 
single word and a philosophy behind it called containment. That 
guided eight Presidents, Republican and Democrat, and 20 
Congresses through 40 years. I think that is what we need. We 
must look a little bit before we talk about the strategy that I 
will propose at three things strategists all look at. We 
understand here how the ways and means have changed, from the 
FBI going from reactive to proactive; how we want to exchange 
more intelligence information; reorientation of the military's 
capabilities. When we saw a soldier, an Army sergeant, ride 
into battle on horseback with a GPS receiver and a satellite 
radio, and he's guiding a B-52 designed for nuclear warfare to 
drop a 500-pound bomb on a machine-gun nest, we understand the 
ways and means have changed.
    How about the end state? That's the difficult thing. We 
understood the end state when the Japanese bombed Pearl Harbor. 
Unconditional surrender. That was it. We understood the end 
state when dealing with Nazi Germany. We understood the end 
state for the cold war. What we have to do is really truly 
admit to the American people there is no end state. As Dr. Kass 
and Dr. McIntyre said, this isn't going away. If we kill all of 
al Qaeda tomorrow; technology will allow the other small actors 
to threaten us.
    I used the example the president of the American Medical 
Association in 1967. From the scientific community the 
president of the medical association said in 1967, ``we will 
soon cure infectious disease'' because of vaccine and 
antibiotics. Almost seems humorous now, doesn't it? But there 
is a good lesson there, because we are curing some diseases. 
Within 2 years, polio will be eradicated from the human 
species, but we know all infectious disease won't. We may 
eradicate al Qaeda; terrorism we cannot. We have to learn to 
deal with it.
    Therefore the strategy that I think provides the single 
unifying strategy to those six that I looked at, for that 
single unifying strategy, I recommend five points: one, 
relentless pursuit on a multilateral basis when possible of 
individuals and organizations who threaten our homeland; two, 
aggressive programs that prevent the proliferation of weapons 
of mass destruction, particularly nuclear and biological 
weapons--investments in programs like Nunn-Lugar are some of 
the best investments we can make; three, concentrated efforts 
to win the war of ideas that we have been talking about here, 
and some of those war of ideas are inside the United States 
preparing the American people--the five-step program in Israel 
for counterterrorism, step 5 is prepare the public 
psychologically. I'm not sure we're doing that; fourth, 
development of standards. And I know the chairman and this 
committee has been working on this since before September 11. 
We must have standards for prevention, mitigation and incident 
management that are fiscally sustainable for the long haul.
    And now I said how good Nunn-Lugar was. Let me tell you how 
poor Nunn-Lugar-Domenici was. Remember the 100 largest cities? 
We went out there and threw all kinds of money at them, and it 
made us feel read good. There was no continuation training 
program. Colonel McIntyre and I spent 60 years in the military. 
You train a sergeant to fire an M-16 today, you better be 
prepared to train him next year or he's not going to hit 
anything. So we went all that money on first responders, but 
their turnover rate is 22 percent a year. You have to provide 
programs that are sustainable.
    And finally, understanding that overreactions by Congress 
and the administration could cause more long-term damage to the 
American economy than the terrorists, we must be able to 
contain ourselves and our responses.
    So the strategy that I offer that unifies these six 
strategies that the administration has produced, my offer is, 
to borrow a word from the cold war, containment. We must 
contain the capabilities and global reach of the terrorists. We 
must contain the proliferation of weapons of mass destruction, 
particularly nuclear and biological. We must contain the spread 
of hatred with an offensive campaign of our own in the war of 
ideas. We must contain our vulnerabilities. And we must seek to 
contain our response to overreact, our tendency to overreact.
    This is a realistic strategy. It's one that will work, and 
it's one we can afford. It's a strategy that provides guidance 
for action and spending, and it's a strategy that's attainable 
and affordable, and containment is a strategy and the end state 
we seek.
    Mr. Shays. Thank you very much. Thank you.
    [The prepared statement of Colonel Larsen follows:]

    [GRAPHIC] [TIFF OMITTED] T4017.100
    
    [GRAPHIC] [TIFF OMITTED] T4017.101
    
    [GRAPHIC] [TIFF OMITTED] T4017.102
    
    [GRAPHIC] [TIFF OMITTED] T4017.103
    
    [GRAPHIC] [TIFF OMITTED] T4017.104
    
    Mr. Shays. Mr. Cilluffo.
    Mr. Cilluffo. Thank you, Chairman Shays and distinguished 
members of the committee. It's good to be back and in familiar 
surroundings to discuss our strategies to combat terrorism and 
secure the homeland. Like Dr. Kass, my insights or thoughts are 
my own and obviously do not reflect my views and my time at the 
White House and/or other organizations, the Homeland Security 
Advisory Council and others I may be part of. Given time 
constraints, I will try to be brief. Not one of my strong 
suits.
    Mr. Shays. Be concise.
    Mr. Cilluffo. I will deviate from my prepared remarks and 
highlight a few of its key points.
    Like Dr. McIntyre, I would like to compliment the 
subcommittee for its leadership and longstanding role in 
helping frame and shape the strategies before us today, and 
also for recognizing that we cannot march into the future 
backward fighting yesterday's wars alone. We need to remember 
that September 11--the attacks of September 11 were not merely 
a snapshot in our Nation's history. We are in a new normalcy 
now. The threat remains very real, but yet may come at us in 
various forms and ways and in morphing ways. This living agile 
enemy bases its actions on our actions, seeking out and 
exploiting our vulnerabilities. Thus we must be willing to 
learn from our successes and mistakes and effectively manage 
risk by constantly reevaluating our policies and recalibrating 
our programs in order to stay ahead of the terrorists.
    In order to combat these ambiguous and moving targets, we 
need a national strategy that is flexible, comprehensive and 
coordinated; living strategies, if you will. From my 
perspective, the President acted decisively on this need. In 
conjunction with one another, the strategies before us today 
provide a comprehensive national strategy to win the war on 
terrorism on all fronts.
    A comprehensive strategy to combat terrorism must employ 
every instrument of statecraft to attack the enemy on all 
fronts and secure our homeland. For example, you cannot 
separate homeland security policy from economic policy from 
foreign policy from national security policy from military 
policy from health policy from science policy and technology 
policy. It is messy, and I think Congress realizes it's messy, 
in terms of trying to get your arms around this challenge. It 
is cross-cutting by its very nature, and they are inextricably 
interwoven, and you cannot treat policies in isolation. It's 
not about building a little black box that says break glass 
when something bad happens.
    I love the term that Mr. Yim used earlier. It is about 
embedding tactics, operations and existing tactics and 
operations, and it is about integrating a whole wherein the 
strategies feed off and enable one another.
    The task of securing the homeland has been cast by some as 
a choice between security or freedom or security or 
competitiveness. We heard the discussion earlier today. These 
are not mutually exclusive propositions. In fact, we can and we 
must have both. The single tenet that underpins everything we 
are doing, it is not about security or freedom, it is about 
securing freedom. And we can never forget that. And we need to 
do so in a way that projects our values. We need to protect 
Americans, but we always need to protect and project America.
    The overall strategy to combat the threat of terrorism must 
incorporate the marshalling of these domestic resources with 
the engagement of the international allies and assets. We 
should learn from the experience of our allies. Many have had 
decades of terrorism that they have had to deal with over the 
years, and we should continue to build on some of the successes 
that we are learning as we are prosecuting this war and as we 
are moving into it day in and day out.
    I think the National Strategy for Combating Terrorism 
recognizes that we also need to be proactive and extend our 
defenses outward. We discussed earlier some of the questions 
raised by some of the Members here. What are some of those 
specific international issues we need to be able to address? 
And quite honestly, we want to be able to push the border out, 
widen the net to stop terrorists over there, and not waiting 
until they reach our shores right here. And to do this, we need 
to recognize that a transnational threat will require 
transnational solutions. We need to maintain a coalition of 
countries dedicated to isolating not only terrorist 
organizations, but also the nations that sponsor, support or 
harbor them. And I think the National Security Strategy of the 
United States makes that clear.
    Bringing all the instruments of statecraft to bear will not 
only pressure these countries to cease actively or passively 
harboring terrorist organizations, but also pressure them to 
take the initiative to deal with the terrorist problem within 
their own borders and ultimately drain the swamp that spawns 
terrorism. I clearly see that as one of the end states.
    Let me just say a brief word because both Congressman 
Schrock and Congressman Platt brought this up earlier about 
intelligence. It is the life blood of the war on terrorism 
whether in support of diplomacy, covert action or in support of 
military, law enforcement or homeland operations. Intelligence 
not only provides the detailed information we need to preempt 
attacks, seize terrorist assets and identify terrorist 
capabilities, it can also provide us insight into what the 
terrorists value, allowing us to go on the offensive and take 
it away.
    It is critical to illuminate key vulnerabilities that can 
be exploited and leveraged to preempt, prevent and disrupt 
terrorist activities before they occur. And I think that the 
mix between signal intelligence and human intelligence was one 
that we did for years, Congressman Murphy, neglect. I think 
that is slowly changing, but you have to realize it takes time. 
You don't push a button, and it is not as easy as knocking on 
bin Laden's cave and saying, hi, I am here to join. This is 
going to take years potentially to get that right. But clearly 
the objective should be to get there before the bomb goes off.
    We want to be able to fragment the adversary, to fragment 
its enterprise and attack the pieces, which I think is one of 
the action plans we have been working toward. That said, we can 
never guarantee with 100 percent success in preventing all 
attacks. Immediately following September 11, the President led 
an assessment to identify what policies, programs, procedures 
worked, which didn't, and what are the major gaps and 
shortfalls that needed to be backfilled. In a way, we were 
building an airplane midflight.
    As we go about culminating in the President's National 
Strategy to Secure the Homeland, we are also going through the 
greatest transformation in the Federal Government's history 
since the National Security Act of 1947. Dr. Larsen mentioned 
the containment word. If I were forced to put our homeland 
security strategy on to a bumper sticker, that word would be to 
connect; to first connect the many Federal departments and 
agencies that have a role in securing the homeland. The 
President came to the conclusion that the whole was less than 
the sum of its parts; hence the creation and marrying up of 
authority, accountability and resources with the new Department 
of Homeland Security. But it also meant identifying who needed 
a seat at the national security planning table. This isn't just 
the regular suspects, FBI, CIA, Department of Defense. Primary 
care physicians, entomologists, agricultural services 
inspectors, people who have never really been part of the 
national security community not only needed a seat, but a 
front-row seat.
    Culturally there are huge challenges. One community wanted 
to string them up--law enforcement, the other community, string 
them along--intelligence, and then you got the health component 
that just wanted to deal with the strung out. Very different 
views on the world. So we want to be able to bring some of 
these capacities together.
    But the Federal piece is easy compared to interfacing with 
Federal, State and local. Obviously any national strategy needs 
to be national, not Federal. And we all know that those first 
to arrive and last to leave will be our Nation's emergency 
responders. They are the ones who need the tools, the 
capacities and the wherewithal and will ultimately determine 
whether or not the battle can be won or lost.
    We discussed the private sector. They own and operate a 
majority of the infrastructure. This can't be a ``thou shalt'' 
from Washington. It needs to be a partnership--work with. I 
personally believe it should be mitigate before litigate or 
regulate, but we need to be able to put some pressure on some 
of the shared responsibilities of the private sector, and it is 
a shared responsibility. Government needs to lead by example, 
get its own house in order, and only then can they expect the 
private sector to do the same.
    Congressman Tierney, you mentioned the American people. I 
think this is a primary tenet of the national strategy. We need 
to get information to citizens on what they can do to protect 
their families and their communities; the Citizen Corps, part 
of USA Freedom Corps, the ``ready'' campaign asked people to 
start thinking not to ask how afraid should I be, but what can 
I actually do about it. And the President's view was the best 
way to defeat evil is to do some good and to reinvigorate some 
of the public service that is available.
    Let me also----
    Mr. Shays. No. Let's close up here.
    Mr. Cilluffo. Let me close very briefly to state--and I 
will use the wise words of Yogi Berra, who I consider one of 
the greatest strategists and philosophers: The future ain't 
what it used to be. And the best way--and I think it is also 
fair to say that since the end of the cold war, threat 
forecasting has made astrology look respectable.
    [The prepared statement of Mr. Cilluffo follows:]

    [GRAPHIC] [TIFF OMITTED] T4017.105
    
    [GRAPHIC] [TIFF OMITTED] T4017.106
    
    [GRAPHIC] [TIFF OMITTED] T4017.107
    
    [GRAPHIC] [TIFF OMITTED] T4017.108
    
    [GRAPHIC] [TIFF OMITTED] T4017.109
    
    [GRAPHIC] [TIFF OMITTED] T4017.110
    
    [GRAPHIC] [TIFF OMITTED] T4017.111
    
    Mr. Shays. Mr. Schrock.
    Mr. Schrock. Mr. Chairman, we have attended a lot of 
hearings, but these are probably five of the most fascinating 
informational people we have ever had, and we thank you very 
much.
    Dr. Kass, you mentioned Clausewitz, which gives me goose 
bumps because I had to read that book on war when I was at the 
Naval War College, and I stuck it away, and we're moving out of 
our house, and I was looking at the books, and there it was. 
Believe it or not, I'm going to read it again, because I really 
believe it will apply to a lot of what we are doing here. So 
that is one you are right on.
    You talk about patience. You talk about patience. We don't 
have patience in America. We want instant gratification. We 
thought the minute we went in and bombed Afghanistan the first 
day, it was over and everything was going to be fine, and that 
is an education process the American people clearly need to 
understand.
    And, Colonel McIntyre, you said something I'm going to 
remember for a long time: managing dangers, not eliminating 
them. As much as Ed Schrock would like to eliminate all these 
dangers and get rid of these guys, I'm afraid we are not going 
to be able to do that. The Vice President has said if we leave 
one terrorist standing, they are going to put roots in the 
ground and continue to grow. And that is nice to think we might 
get rid of everybody, but if we can manage that threat, that is 
probably some--and know where to stop, that is a fascinating 
comment. I'm going to be thinking a lot about that, too.
    And the strategies can change in every administration, and 
they do. You are starting to hear that on the campaign trail, 
if I am elected, I will do this, and I will take this action. 
And I am not sure all that is good for the long-term role or 
goal in trying to get rid of the terrorists.
    And, Colonel Larsen, preparing the public, that is one of 
the hardest thing we have to do, because I think they want this 
thing over, and they think it's going to be over. But they need 
to be educated that it's going to be a long time.
    And sustainable programs, you're right. It's fully funded. 
It's a feel-good thing. We do it. We think we are done with the 
job, where in 5 years everybody who was there who got the 
training is gone, and we need to get that up and going.
    And Mr. Cilluffo talked about new normalcy. We are never 
going to be the same again, and that is a very, very sad thing, 
but we need to stay ahead of the terrorist.
    I am not going to ask you the two longest questions. The 
coordination of the agencies is real important, and the heads 
of the cabinets, the butting of the heads of the Cabinet 
members, how do we solve this? How do we get these agencies to 
work together so everybody is talking off of one sheet of 
music, so everybody out there isn't doing their own thing? I 
don't understand that, and maybe you do.
    Dr. Kass. The only way you can do that is exactly the way 
the committee is trying to do it, namely what is the 
overarching strategic design; what is it that we are supposed 
to be all trying to accomplish, and only then you can go from 
strategy to specific tasks that assign to the various agencies. 
Right now everybody is doing everything, and you have no 
clarity.
    Dr. McIntyre. We are going to have to find some way to 
reward people. You know, when you play in the Super Bowl, you 
get paid more if you are on the winning team. You don't get 
paid extra just for being really good at defense or being a 
really good pass receiver. So everybody plays for the team. But 
our entire system is constructed for individual or agency or 
local evaluation and consequently local reward. We have to find 
a way to reward the entire system when it succeeds and punish 
the entire system when it fails. That is very difficult to do, 
but I am telling you the individual reward is not the answer to 
moving the team as a whole forward.
    Mr. Schrock. What I hear you saying is that means going 
into these agencies and rooting out some of the mentality 
that's been there forever that wants the status quo and doesn't 
want things changed for their own security?
    Dr. McIntyre. The single greatest obstacle we face in 
changing the bureaucracy is to undo the successes of the past. 
It is not the failures of the past, it is successes of the past 
is the problem, because people will continue to do that because 
it has been successful in the past.
    Mr. Schrock. But what is successful in the past doesn't 
apply.
    Dr. McIntyre. Our whole structure is built from our 
academic system forward. From the 1500's, we built an academic 
system that is vertical, and that is the way people are 
rewarded. Our problems today are horizontal.
    Our problems today are horizontal, and we've got to find a 
reward structure that is horizontal in nature and not just 
vertical in nature.
    Mr. Schrock. We will--I think the Secretary of Defense is 
trying to do that in his reorganization of the Pentagon.
    Give us an example of how you do that.
    Dr. McIntyre. Jointness is a very good one in that you are 
not necessarily promoted for being a really good Army officer 
anymore.
    You are rewarded for being part of a joint team, for unless 
you have proven yourself in that joint team there is no 
advancement no matter how good you are in the Army or the Navy.
    We are going to have more--I don't like necessarily the 
word ``jointness'' to apply but more interagency--reward for 
interagency behavior.
    Mr. Schrock. Purple.
    Dr. McIntyre. ``Purple'' is a good word. ``Interagency,'' I 
think, is the proper word.
    You do that, you know, the Congress did that with the 
services by making the requirement that you had to serve 
jointly for advancement to general officer.
    When that kind of requirement becomes the commonplace 
within the agencies in the U.S. Government, then cooperation 
and interagencies will be desirable, in terms of where you send 
the extra person out of the office.
    Colonel Larsen. You used the term ``patience'' a moment ago 
in talking to Dr. Kass.
    Remember, that took 40 years to get it right, to get 
Goldwater-Nichols, but it's a commitment to that long-term 
effort because it took Congress, not the administration or the 
Pentagon, to give us Goldwater-Nichols, to give us jointness so 
we could work together. So it is going to take action by this 
body and time.
    Mr. Schrock. I agree.
    Mr. Cilluffo. Congressman, two points come to mind.
    First, the Homeland Security Council, in conjunction with 
the National Security Council and the Executive Office of the 
President, does have a Deputy Assistant to the President that 
supports both the Assistant to the President for Homeland 
Security and the Assistant to the President For National 
Security, Dr. Rice and Dr. Gordon, but let me also say that 
clearly the turf we should all be worried about is the turf we 
are all standing on and the horizontal challenges in 
conjunction with the vertical challenges are not easy.
    I believe General Eisenhower, and it's in the Pentagon on 
the way to the bubble, and it's a quote and I'll paraphrase it: 
In preparation for war I have found plans to be useless but 
planning to be indispensable, and I feel the training and 
exercising component of this is so important. We can't afford 
to exchange business cards on game day. We need to get people 
to be facing one another, to understand the roles, to 
understand their limitations, to understand what their actual 
missions are, at the Federal level and at the Federal, State 
and local level.
    The words mean something very different.
    Lexicon. The word ``surveillance'' to an epidemiologist 
means something very different than it does from a military 
perspective, from a C4ISR perspective than it does to law 
enforcement.
    This is a transformational change that will take some time 
for us to get right. I'm not sure it will ever be right, but 
one thing we do know is we are going where we can afford to 
fail.
    As Benjamin Franklin once said, failing to prepare is 
preparing to fail.
    Mr. Schrock. That's right.
    Mr. Cilluffo. So I think we need to identify some of those 
areas that maximize secondary and tertiary benefits beyond just 
guards, guns, and gates, and training and exercising, getting 
people in the same room together at the highest level and at 
the operating level will go a long way in at least breeding 
some of that trust, because ultimately that's the word.
    It's not that people distrust one another. It's that they 
don't appreciate their roles and their missions and I think it 
takes time and we'll need to reach out to the American people 
to garner their trust and enlist their trust.
    Mr. Schrock. Mr. Chairman, thank you.
    I could stay here all day but I have another appointment I 
must go to, but I thank you very much.
    It has been very, very beneficial to you being here.
    Mr. Shays. Thank you, Mr. Schrock.
    Mr. Tierney.
    Mr. Tierney. I don't know if I heard Dr. Kass and Mr. 
Schrock correctly but there is a discussion about campaign 
discussions and what people are going to do about this and I 
don't know if I heard the correct statement, do you think this 
is healthy or not, and, if that's the case, I think it is 
absolutely healthy that we have a transparent discussion.
    I think we all ought to be focused on the issue of 
terrorism and that we all want to deal with it but I think how 
we deal with it is essential.
    To have a transparent discussion among all the candidates, 
as well as the incumbent, what is our approach to national 
security, what are our strategies going to be?
    Mr. Shays. Will you yield?
    Mr. Tierney. Sure.
    Mr. Shays. What I heard was ultimately we have to have a 
national agreement and that we've never had the kind of debate 
that you're suggesting, that we just kind of----
    Mr. Schrock. That's right. That's right.
    Mr. Tierney. Then we all agree debate is important and 
critical.
    Mr. Schrock. Administration after administration.
    Mr. Shays. But it has to be dealt with on a bipartisan 
basis.
    Mr. Tierney. Exactly.
    I'm much assured to hear that because that's not something 
we've had so far and we've had a lot of politicking and 
posturing and setting things out without consulting the other 
party; sometimes without consulting Congress.
    This committee is as frustrated as anybody as far as 
setting standards for our local communities, etc., in terms of 
what has not been done, in terms of looking at the local 
resources, and I think we have to know what people are going to 
do in that regard, what their attitude is toward this whole 
situation, and that may need to be clarified, I think.
    All the things that the members of the panel have been 
talking about here in terms of coordinating, I assume you will 
agree it is just as important to coordinate the resources 
between the national and the international level; there would 
be no disagreement there, right?
    Dr. Kass. Yes.
    Colonel Larsen. Yes.
    Mr. Cilluffo. Yes.
    Mr. Tierney. I don't know there is a lot to ask in terms of 
questions, so, Mr. Chairman, I will yield back to you at this 
point.
    Mr. Shays. Thank you.
    Mr. Ruppersberger.
    Mr. Ruppersberger. Yes.
    We're talking about plans so that we can get to our end 
game strategy for implementation, and, just as an illustration, 
just to have your opinion, we were very successful in the 
beginning stages of the war with Iraq, and then after we were 
in it all of a sudden we had problems, and there has been 
allegations that the planning for the post-invasion was not 
adequate, it was put together hastily, and it took a while to 
get to stabilize, to be able to bring the security that is 
needed to liberate Iraq.
    Do you have any opinions about that plan and how it would 
relate to what we're talking about here today?
    Dr. McIntyre. I've heard that discussion. I think it casts 
the question too narrowly. I have a problem not just with the 
issue of Iraq. I have a problem with the direction of military 
thinking since the end of the cold war, and it seems to me 
that, regardless of party, regardless of ideological 
background, regardless of service affiliation, there has been a 
relentless tendency over the last 15 years to focus on how 
we're going to do something instead of what effect of whatever 
it is we're going to do will have on the enemy.
    I think we perhaps got off on the wrong foot after the end 
of the cold war, in 1989 to 1990 and 1991, when instead of 
asking the question how do you defeat enemies, why do people 
quit, why are wars over and then begin to construct our 
military to be flexible enough to achieve that, instead we 
focused on the question of how do we take new information 
technology and apply it to what we are doing to make it better.
    That happens to cross-administrations from both parties, 
it's happened with conservatives and liberals.
    I'm telling you I think we have not asked as a government, 
as a Nation, in the academic communities, in the service 
colleges, we have not asked the single most important, most 
fundamental question: Why are wars over?
    We have focused instead on why wars start and if you ask 
that question why is war over and why do wars end then it takes 
you to a different pattern. You buy different things. You have 
a different set of planning, so I guess what I'm trying to tell 
you, sir, is I understand the criticism with how this war was 
waged.
    My criticism, however, is much larger, and that is how all 
of us have been thinking about wars since trying to recast 
ourselves and our military for the last 15 years, and if you 
will take that different approach, I'd suggest the same 
approach to intelligence.
    We keep asking the question: ``What do we want to do?'' The 
central question is: ``What do we want the enemy to do?'' That 
determines what we do.
    Mr. Shays. What does that mean? Can you answer? What does 
that mean?
    Dr. McIntyre. What do we want him to do, do we want him to 
surrender, to cooperate with us, want him involved along 
certain borders, to simply die, change his ideology?
    What is it we want the enemy to do, and until we can figure 
that out, our applying different means is not going to solve 
the problem.
    We are getting better and better with making the military 
more flexible, making the arrival of bombs more precise, the 
employment of forces more rapid. I'm not sure that solves the 
problem but just getting better at what we do.
    Mr. Ruppersberger. We are still considered to be the 
superpower of the world because of our technology but there was 
an issue that I believe occurred under Carter, Stansville 
Turner, where there was a policy decision made to take more 
away from human intelligence and to put it into the 
technological end, and, as a result of that, if you want to 
look at the whole picture that's happened right now, we do not 
have--we had it but we don't have it to the degree we need to 
have the human intelligence, that we know the culture of the 
people we're dealing with; I mean, just Iraq, we have religious 
issues that are out there. We have a lot of issues that we have 
to address and still--we still have to make sure we secure the 
area and that we finish what we started.
    Dr. McIntyre. That's precisely what I was saying.
    Mr. Ruppersberger. To balance terrorism, and if you look at 
DOD, it's a huge massive agency, and the culture there was to 
go after as we did in the beginning of the Iraqi war and we 
were successful, but we also are dealing with terrorism now and 
it's a different ball game.
    Dr. Kass. So it's just another aspect of education which 
most people forget, and that is the total lack of language 
skills, understanding of other cultures.
    If you looked during the cold war, Congress legislated the 
National Defense Language Act. A lot of us who learned Russian 
during the cold war, myself included, benefited from 
scholarships which were designed to learn about our enemy.
    We do not have that. We do not understand the enemy that we 
are fighting, and I would submit to you that is a critical 
step.
    One of the problems in Iraq is not lack of planning, but it 
is lack of basic understanding of what the enemy might do, and 
you've got to be able to understand what he might do, based on 
understanding his culture, his history, his past behavior.
    We don't have that.
    Mr. Ruppersberger. I agree with you.
    We also need to learn more as a country about the Muslim 
religion.
    Dr. Kass. Yes, sir.
    Mr. Ruppersberger. Because if we're ever perceived by 
Muslims there is a war against Islam, we'll have a very real 
problem and it got real close in the beginning of the Iraqi 
war, Egypt and other areas, but I think it turned around.
    One other area I'd like to get into, you mentioned the 
issue of intelligence. Are you familiar with the Office of 
Special Plans in the Department of Defense?
    Almost everyone involved there was more of a political 
appointment instead of a long time member of CIS, NSA, 
whatever, and there were concerns about that group 
circumventing, say, the CIA and not vetting all the information 
before it actually went to the policy of the President, and as 
a result of that there was actually information that really got 
into the State of the Union last year.
    Do you think that there needs to be, when you have an 
Office of Special Plans, that there needs to be more of a 
relationship with that type of group and with the other 
agencies, such as CIA, NSA, FBI, that type of thing?
    Dr. McIntyre. I think it's really important, sir, when 
you're being called upon to testify to your expertise, to know 
when to draw the line, and I don't have an expertise in that 
area, so any answer I give you would not be an expert answer.
    I just don't have the expertise to answer that question.
    Mr. Ruppersberger. Do you have an opinion?
    Dr. McIntyre. My opinion, sir, is that we have missed 
something much bigger than people are digging at right now. It 
was just not the Iraqi war we missed. We missed the response of 
the French, we missed the response of the Turks, we missed the 
response of the Russians.
    We missed the way Saddam was going to play his hand and we 
missed it for a long period of time. We didn't get what was 
going on, so that is structural and is not specific to either 
this administration or the past one. It's a much larger 
conceptual problem, cause and effect.
    Mr. Ruppersberger. Why didn't we do that?
    Dr. McIntyre. Well, what we taught at the National War 
College, if you're not real careful believing is seeing, and 
over a period of about 15 years, we built up, I think, a habit 
of we thought we knew what we were seeing and consequently we 
saw it, not just in this area, but in other areas as well and 
it is very hard to break that.
    It takes outside thinking, outside expertise, a constant 
challenging, so I want to be very careful.
    You asked me for an opinion. I can give you expertise as a 
strategist and I can tell you the history is filled with people 
who saw what they believed and you have to be careful about 
that.
    I cannot judge this particular office. I just don't know.
    Mr. Ruppersberger. In your testimony, it was General 
Hooker, correct?
    Dr. Kass. Yes, sir. Yes, sir, and that's a prime example, 
sir, just to reinforce: the notion of understanding your enemy 
and understanding your allies and not expecting others to 
behave the way you would in similar circumstances. We are not 
very good at it.
    Mr. Ruppersberger. One other issue. One other question?
    Mr. Shays. Oh, no. Keep going. Keep going. It's 
fascinating.
    Mr. Ruppersberger. One other question in a different arena.
    Your testimony, I forgot whose it was I read, talked about 
the issue of preemption, without bringing the rest of the world 
into the fold.
    What do you think the administration could have done to 
bring the other nations into the fold before we did the 
preemptive strike with Iraq from a planning perspective?
    Mr. Cilluffo. Well, I'll take not Iraq specifically but 
looking at preemption and the war against terrorism and non-
State actors, which actually requires personalizing.
    When we deal with States, you need the information that 
exactly you would mention, and largely that's going to be based 
upon human intelligence and these people were not Boy Scouts, 
these aren't good people, and obviously good people don't have 
the insights into the mind of the terrorist, but, ultimately, 
from a preemption standpoint, obviously you want to bring along 
as many supporters as you have and we have on the war on 
terrorism.
    We're working hand and glove and especially with respect to 
the indigenous security services. With many nations, we are not 
on a first name basis with them and good relationships with 
them, but with the war on terrorism we actually have been able 
to cooperate and coordinate with the foreign services and 
many--and I'm not speaking Iraq specifically but it does 
require making some hard decisions.
    You've got to be willing to make mistakes. People have to 
be willing. Analysts aren't clairvoyant. They're going to make 
mistakes as well. If we were analysts, obviously, we would want 
to be on Wall Street and identifying where stocks are going in 
the future. It's an imperfect business, and all too often if 
people go out on a limb and they get caught for getting 
something wrong, they don't necessarily see the light of day in 
the future. So I think that both in the collection side, where 
people need to be willing to take risk and we need to accept 
some blowback and on the analytical side we need to be willing 
to make mistakes, and that is something that ironically is not 
fostered, to some extent, something I think that the Congress, 
in conjunction with the administration, can help play.
    Colonel Larsen. Sir, in line with what we've been 
discussing here, many of our allies understood the situation 
better than we did--what the end state would look like. We 
don't speak the language. There were 40 fluent Arabic linguists 
in the State Department when the Iraq war started, that's all.
    Mr. Ruppersberger. Do you feel that is a breakdown in our 
intelligence then?
    Colonel Larsen. It's bigger than intelligence, I'll agree 
with Dr. Kass.
    Dr. Kass. It's in the nation.
    Colonel Larsen. We're talking about State Department, 
Department of Defense, it's national security that we don't 
understand who we are at war with, which goes back to Mr. 
Clausewitz's first statement, you better understand what you're 
getting involved in.
    Mr. Ruppersberger. It's not only in human intelligence but 
in analysts. We have to connect the dots.
    Colonel Larsen. Analysts and policymakers.
    Mr. Ruppersberger. But eventually the policymakers are 
relying on the intelligence to make their decisions, and that's 
why it seemed to me there was a circumvention of a standard 
that was used in the past that wasn't used, and what are we 
here about?
    We're here to learn about what we did wrong, so that we can 
fix it and make it better. Bottom line, that's where we want to 
go.
    Dr. McIntyre. Let me give you two brief points on 
preemption, since it is such an important topic.
    This is actually what I did my dissertation on about 5 
years ago, modernization forces, and I came to the conclusion 
in 1999 that the United States was going to be moving 
inevitably toward a doctrine of preemption during the last 
administration because that's just where the logic of war takes 
us.
    I concluded in looking at previous wars that there were two 
things that caused a Nation to preemption, to attack 
preemptively. One is if it decides that the threat against is 
so overwhelming that it won't be able to survive the first 
strike, then it will have to preempt.
    The second is, alternatively, if it decides that its own 
capabilities are advancing to the point that a strike would be 
relatively easy and relatively low cost.
    What we had in the Iraq war was the perfect storm. Both of 
those things came together. We had a situation where we had 
every reason to believe that an attack against us, for example, 
of biological weapons, would be a one-blow knockout. No. 2, we 
had every reason to believe we could take care of this 
relatively quickly and with low cost and I guess what that 
tells me is that we need to be really, really careful because 
the momentum for any administration will be to be pulled 
forward by such circumstances.
    Mr. Ruppersberger. Thank you.
    Mr. Cilluffo. Mr. Congressman, and your intelligence should 
support decisionmakers, that's key. It's not the decisionmaker 
itself. That's something that's underappreciated or 
misunderstood.
    Mr. Ruppersberger. OK. Thanks.
    Mr. Shays. This has been a fascinating panel, and the 
questions asked. I feel in some way like I'm losing track of 
the original effort of our committee.
    Mr. Ruppersberger. All esoteric.
    Mr. Shays. If you ran against an opponent, ultimately you 
would want your opponent to lose. You would then maybe bring it 
up one level and say you would like to get out of the race 
before you lose, and third would be you would like them to 
actually endorse you.
    Mr. Cilluffo. Right.
    Mr. Shays. I mean, I would love al-Qaeda to just love us 
and the world would be peaceful. I know that's not going to 
happen.
    I am fascinated though by certain concepts. I've been to 
Iraq four times, one time just without the military entirely, 
two times without the military and then with the military and 
one time just with the military, so four times total, and there 
was one individual named Mohammed Abdul Hassan and he grabbed 
me by the arms, by the shoulders practically, and he said you 
don't know us and we don't know you.
    That was in April, and I just came back to our folks. We've 
got to get our Arabic speakers in there and Iraqi Americans as 
fast as we could.
    Now, what's surprised me, Dr. Kass and Dr. McIntyre, is I 
put the blame on this squarely on the military and the White 
House, because I agree with Mr. Ruppersberger. We went down in 
April, May, and June, and July and we've been clawing our way 
up since August, and we've made some progress, so if in Iraq we 
were here in April and we're here now in February, there's some 
slight incline. It's more significant because we got ourselves 
deep in a hole.
    How in the world, though, given what you all teach, which I 
totally accept, how would we have blown it? Why would the 
military have been the one to have blown it in that sense; or 
let me say this: Was it the military saying in your judgment we 
better be careful, and it was maybe the political leaders not 
listening to the military?
    I know this is a little sensitive, but this is big stuff 
for me.
    Dr. McIntyre. Sir, we'll go wherever the chairman wants to 
go in the discussion. I don't place the blame for this on the 
administration. I do not place it on the political leaders, and 
I do not place it on the military. I place it on the academic 
community.
    We have been thinking about the wrong things for 40 years. 
It is not just the intelligence community that was caught 
totally by surprise by September 11. It was the academic base 
from which the intelligence community is drawn. That's who 
educates our people.
    Dr. Kass. Yes. Yes.
    Mr. Shays. But you were both there and you're persuasive; I 
mean, I wouldn't have been in your class and this not been 
memorable if you had discussed these things.
    Dr. McIntyre. At the military colleges where Randy taught, 
they draw what they teach from the civilian academic community, 
and so there is a limited amount of discussion to draw from, 
and I'm just telling you, sir, since 1950 or 1960 we haven't 
talked about how to end wars in the academic community. We 
talked about how to prevent them, so there is a very limited 
body of knowledge out there to draw on.
    Colonel Larsen. Let me give you a very specific example 
that answers your question.
    Strategically, I think many of us agree Saddam had to be 
done away with, perhaps establishing a democracy that's going 
to make the world safer. Tactically, our troops did a marvelous 
job. Operationally is where I saw some failures. One hard 
example and this is from Lieutenant General Paul Surgeon, who 
is retired and in charge of rebuilding the entire Iraqi Army.
    It was a great plan. Unfortunately it ended up like General 
Hooker's because the troops were supposed to lay down their 
arms at the barracks, in place, stay in uniform, we would take 
them over, so we had a bunch of good Iraqis that had some bad 
leaders and now we have a police force and military that we can 
quickly put leaders upon.
    CENTCOM Headquarters when the war started a couple days 
early said lay down your arms and go home. They threw off their 
uniforms and went home and blended back into society. We don't 
know where they were, so our whole plan for controlling the 
country afterwards fell apart at the operational level.
    Mr. Shays. Well, there was a big discussion because they 
were--I mean, not big distraction, but we could spend a lot of 
time here, because, for me, Dr. Kass, you started out not the 
Hooker part but the humility part was what caught me.
    Dr. Kass. Yes, sir.
    Mr. Shays. Because given what I thought and the President 
thought and the French even thought and the Germans even 
thought, that we would find weapons of mass destruction. There 
were a few Members of Congress who didn't think that and I 
acknowledge that, but it strikes me that a little less hubris 
is in order.
    Dr. Kass. Yes, sir.
    Mr. Shays. And what struck me is that there was just 
tremendous arrogance having won this war, even without the 
Turks' help, because that was a whole theatre we weren't able 
to enter in and we still did it.
    It's hard not to feel like, boy, things are going well and 
then it just kind of fell apart for a few months, and hubris is 
the thing that I put in the biggest challenge.
    Yes, what were you going to say?
    Dr. Kass. Yes, I couldn't agree more with you. We are the 
victims of our own success. Being the world's superpower, 
having our products, our music, our entertainment spread 
globally makes us believe everybody likes us.
    They don't. They don't want to be just like us, but we 
somehow fail to understand that.
    You asked, couple of minutes ago, sir, why don't we 
understand the adversary?
    The simple answer is: We don't study them. We apply our own 
modes of behavior, our own standards of rationality to the 
universe, and that is why we are quite often incorrect in our 
assessments.
    Dr. McIntyre is exactly right. It comes down from inside, 
what we teach in our universities, in our colleges.
    We are still wedded to the cold war paradigm of what we 
teach. That horizontal integration that we all talked about 
needs to be taught to our kids in high school and in college. 
It is not. By the time they become general----
    Mr. Shays. I get your point.
    It gets me, and I'm looking at Mr. Yim and I think he's 
probably thinking, what does this have to do with what we 
talked about; but I'm going to ask you to tie it up, Mr. Yim, 
or Doctor, because it gets to what John Tierney and I talked 
about.
    As soon as we start reorganizing, we developed a national 
strategy, and one of the tragedies I think has taken place, 
tragedy is a strong word, but we have never fully had a dialog 
about what the threat is. So, for instance, I believe strongly, 
in the Patriot Act, not some of the other losses of authority 
by the general public and civil protections, but the Patriot 
Act I believe in strongly, and a lot of people don't in my 
district, don't because they don't think there's a threat. They 
honestly don't think there is a threat because we have stopped 
talking about what the threat is, and why we need it and that 
people, when our intelligence community had better intelligence 
and blame them, that they in my judgment don't want them to 
have a very important tool to get intelligence.
    I realize we can all look at this differently but this is 
the kind of thing I'm sorting out. I'm thinking I hope that the 
Democratic candidate forces a dialog on this whole issue.
    You know, what is the threat and how are we responding, and 
maybe in the end we are all going to come to an agreement that 
we all need to do all the things that we've done, but at least 
we'll all be in agreement. I don't know what you ultimately 
decide.
    Let me ask this: What happens in the end if we can't agree 
on a strategy; in other words, one of the arguments is maybe we 
can't debate the strategy because maybe we can't agree to it. I 
mean, one of the important elements is there has to be a buy 
off, I think, with the general public, so maybe you can talk 
about that.
    What happens if the public doesn't agree on a strategy? 
Should I assume that ultimately we can, we should do it, or 
should I assume that if we can't, something happens? What 
happens?
    Dr. Kass. So let me take a stab at it.
    Passion is good. Consensus is not necessary. I would submit 
to you that we have shied away from even identifying the enemy.
    If you read the strategy skillfully, they tell you who the 
enemy is not. The strategies will tell you we are not at war 
with Islam, and so you mentioned that, but the strategies do 
not tell you positively who the enemy is or what the enemy is.
    That is where you need to begin to build consensus. That is 
too fundamental an issue to skirt or void and jump immediately 
to. This is what I'm going to do about this.
    This is another example of ready, fire, aim.
    Mr. Shays. Anybody else?
    Dr. McIntyre. Based on the discussion I had previously with 
Colonel Larsen, if we don't get a consensus bureaucracy takes 
control of the administrative part of this government.
    Mr. Shays. If you don't consensus.
    Dr. McIntyre. If you don't get a consensus on the strategy, 
the bureaucracy takes control of the future and local interests 
take control of Congress and the bureaucracy determines what we 
do and the local interests determine what we buy, and we find 
ourselves in a significant problem 10, 12, 15 years down the 
road, because those are the two things that will seize control.
    Mr. Shays. Bureaucracy and what?
    Dr. McIntyre. Bureaucracy and local interests. It's more 
the case that the people in your district will want certain 
types of spending in your district, so that's not exactly 
special to say I want you to take care of me in our district.
    Mr. Shays. Can I put it in my words: They may not know what 
they need because there's nothing, so they just think--in other 
words, I want to understand this a little better: Are you 
suggesting that without some consensus or without a national 
strategy that everybody buys in, we go in a lot of different 
ways?
    I don't understand.
    Dr. McIntyre. You have to have a fire shield, I think, as a 
representative, in the same way that the only way we were ever 
able to close bases is if we were able to establish a set of 
priorities and rank the bases and then say local Congressmen 
can't be blamed by the fact that you didn't meet this priority.
    You see, we've built a fire shield. I think we have to have 
some system of priorities to help build a fire shield for you 
and for other Members of Congress; otherwise the pressures will 
be to continue spending at local levels regardless of 
priorities. So two things will happen. I think bureaucracy will 
run things at the top and local requests will overcome and will 
be a constant strain on the budget.
    Colonel Larsen. I agree completely. The focus will be on 
Americans in your district as opposed to defending America. 
That's the sound bite for you. I agree completely.
    Mr. Cilluffo. Mr. Chairman, I think we do have some of the 
overarching strategies in place. It needs to be an execution 
and implementation and, as the old military adage goes, 
amateurs talk strategy, professionals talk tactics, they talk 
implementation and execution.
    That said, I think your point, in terms of raising it and 
in terms of a debate and dialog, is absolutely crucial. We need 
to enlist and marshal and mobilize everyone in our generation's 
war against terrorism.
    I spent a lot of time speaking, I've got four young 
daughters of my own and spend a lot of time speaking in public 
schools and other schools, and how do you send that message, 
while at the same time having it not become a self-fulfilling 
prophecy and creating fear. So I don't think we even had full 
consensus on a containment policy, so consensus shouldn't be 
the goal.
    Mr. Shays. We did during the cold war, correct?
    Mr. Cilluffo. Not completely.
    Mr. Shays. We may not have gotten a consensus on whether we 
need a missile defense system or something, but generally it 
was containment, reactive, mutually assured destruction.
    Mr. Cilluffo. For the most part, but it took a while to get 
to that point, and even at the end-state some would argue we 
were too hard in areas and not hard enough in others. It took a 
couple of key people who bridged, Scoop Jackson and a couple of 
others, parties to help mobilize the thinking along those 
lines, but I don't think we need to look for consensus, but I 
do think there are different actions that different 
constituencies need.
    I don't want the general public being all that afraid, so 
if they're not worried about something happening tomorrow, 
that's one thing. If those that are on the front line, those 
that are going to turn victims into patients, our first 
preventers and our first-responders, if they're lulled into a 
sense of complacency, then I've got problems, and the same can 
go in terms of the international issue. So this is a long term 
challenge.
    I think it would be arrogant to think we know the answers 
today.
    Mr. Shays. Mr. Ruppersberger, do you have questions?
    Mr. Ruppersberger. Yes. First I believe your issue of 
implementation is extremely important. As far as your issue of 
bureaucracy and the local level, our system of government is a 
representative democracy and what really works is a strong 
leader.
    If the strong leader has the plan and sets the goal and 
then works on the consensus and works on getting the votes, the 
system usually works.
    The best defense against a strong bureaucracy is a strong 
leader, and it's about leadership, and if you really look at 
the politics in this country now, in my opinion, why 
Republicans control the Senate, the House, and the Presidency 
is because I feel Americans feel Republicans are better at 
national security and probably feel for some reason, and I 
don't agree with it, that Republicans are more patriotic. But 
if you look at polling, as far as general issues of education 
and other issues, people like what the Democrats do, but I 
think that issue more than anything else is the leadership. The 
issue of national security and the patriotism is a strong 
issue. So I'm not as concerned about the bureaucracy, whichever 
party is the leader at the top who is setting the agenda. What 
I'm concerned about though is the plan and the information that 
is getting to the President or to the leader and where he's 
going or she's going to make the judgment on where they're 
going to go, how they're going to implement the plan.
    You talked about it, Mr. Cilluffo, and I think that's where 
we need to look, and, if not, that's why I think the argument--
I remember, I wasn't here--but term limits. I think term limits 
were extremely dangerous, because if you have term limits the 
bureaucracy controls.
    Mr. Cilluffo. Yes.
    Dr. Kass. Sir, leadership is key and I totally appreciate 
you raising that issue.
    What helps a leader is having a bold idea that can light 
up, galvanize, support, both domestically and internationally, 
and that is why I suggested the pretty bold idea of 
abolishment. Containment to me is too passive.
    Mr. Shays. Before we break, I'd like Mr. Yim--for you to 
just make some comments on what we've been talking about.
    Also welcome you all responding.
    I feel in one way like we're getting totally distracted and 
equally so, because maybe it's an indication that we were 
talking about things rather than theory, so I can gravitate 
more to that than others can.
    Also, I think we were talking about some, I think, really 
fascinating issues.
    Tell me, put some perspective on what you've heard, and 
also I wanted you to tell me if it was a strategy that was not 
part of the seven that I saw, and also I would like you, this 
panel, before we leave, and I don't want to drag this on, but 
I'd like to ask about the list of strategies that we were 
talking about and whether they are just countless strategies or 
should be or shouldn't be.
    Yes?
    Mr. Yim. I think, as an overall perspective, Mr. Chairman, 
I actually am, perhaps because of my success or failure rate, 
I'm willing to accept less than 100 percent solution, because I 
very rarely in my life have been able to achieve 100 percent 
solution, and I think when we talk about this issue of 
consensus I don't think it's absolutely necessary in the sense 
that I don't believe we would ever have 100 percent consensus. 
I don't think we need 100 percent consensus.
    When I was working with the military, I could never get the 
Navy and the Air Force and the Marines and the Army to agree, 
but for OSD there was some commonality in the debate and we 
have so far to go in improving the debate that even if we only 
got a 70 percent solution, I would be pleased with a 70 percent 
solution.
    Ms. Kass talks about Clausewitz. There's another 
philosopher Goethe. I'll paraphrase it and destroy the quote. 
Just start something because when you start something there's a 
whole other bunch of events that come to play that you may not 
even have imagined once you started embarking on that path and 
things may have come to your assistance that you may not have 
anticipated.
    I think for Homeland Security we are so far at the 
beginning that if we can arrive at a 60, 70 percent. solution--
--
    Mr. Shays. Define what you mean by solution. We were 
talking strategies and standards and you're talking solutions. 
I'm confused by that term.
    Mr. Yim. I'm talking an all-hazards approach, for example. 
If people are talking about we have to focus on bioterrorism as 
opposed to a bomb in the port or as opposed to agriterrorism, 
we have to buy this type of equipment versus this type of 
equipment. If you really look at those scenarios, let's look at 
the five high-risk scenarios, a bomb in the port, a 
bioterrorism, agriterrorism, a cyberattack, something like 
that.
    If you really think about it, probably each of those 
different scenarios, even if in different jurisdictions of 
different agencies, they're probably about 60 to 70 percent of 
what you would do. The prevention and recovery is probably the 
same.
    Why don't we do that stuff; and I don't think we focused 
enough on the common stuff that we can do. Other things are 
going to happen. There is going to be new technology. Nobody 
would have predicted the dramatic fall of the Soviet Union. I 
don't think we could have predicted that.
    Things just happened, and I think that's really important 
for us. That means for me answering your second question what 
strategy are we missing?
    I mean, I think we are focusing too much on Homeland 
Security Strategy. I think the strategy that we're really 
missing, Mr. Chairman, if I could be so presumptuous, this is 
not a GAO position, I've been increasingly concerned about the 
gap between the condition of our infrastructure and the ability 
or what we're going to be demanding of our infrastructure in 
the future, the capabilities of our infrastructure to meet 21st 
century challenges, and by infrastructure I mean not only 
bricks and mortar, but people, the skill sets, the education 
level of our people.
    We are not devoting enough money to recapitalizing our 
infrastructure. We can talk something as simple as bridges. We 
all know that many bridges are deteriorating. They are not 
going to be able to handle the traffic load.
    Talk about our hospital systems. They were not being 
recapitalized in a way that can handle SARS, a major league 
bioterrorism attack, and the gap is going to increasingly 
widen.
    Mr. Shays. Let me see if I understand. So if we decide--
it's fairly obvious that our electricity grid is just 
substandard, shouldn't that be part of a national strategy 
related to the war on terrorism or not?
    Mr. Yim. Yes, but we are debating energy policy and 
security energy recapitalization. Those debates are to focus on 
certain things.
    Why aren't we building in energy security, homeland 
security into fundamental decisions in recapping the power 
grid? We are talking. Why aren't we talking about making the 
transit systems more secure while we talk about recapping 
Amtrak?
    Mr. Shays. Let me just go to the panel and go to Mr. 
Ruppersberger and then we're going to end here.
    Any comments to be made?
    Mr. Cilluffo. I fully support Mr. Yim, especially the 
maximizing secondary and tertiary benefits to get a return on 
investment beyond just guards, guns, gates, and you can splice 
that so many ways, and the President in his budget for 2003 and 
2004 actually did put a close eye toward achieving that; for 
example, enhancements in improving our biological warfare 
really is about epidemiological surveillance and disease 
surveillance, which was really a public health structure that 
was broke and broken, so there was attempts to try to maximize 
some of that.
    I think we can go further, but I think one of the points 
here is that security for the American people is always too 
much until the day it's not enough, and that's something we 
need to keep in mind. It's not fun. It's not easy.
    There are no ways to--defining success is a huge challenge, 
but I can tell you one thing I think the President and the 
Congress as well--and I honestly do appreciate in terms of the 
actions that were taken. We can't go to the American people and 
say what I coulda, shoulda, or woulda but didn't because of 
this or that. We need to act and act decisively.
    Mr. Shays. I would go on forever, but we have a 1 o'clock 
closed-door briefing and I think with you, Mr.Yim.
    Mr. Yim. With Mr. Decker.
    Mr. Shays. With Mr. Decker, I'm sorry. We'll do that at 1. 
We need to end up.
    Just any closing comments?
    Mr. Ruppersberger. Just infrastructure. I agree with you 
but infrastructure costs money. Gets back to leadership again. 
Leadership has to prioritize and if the economy isn't doing 
well, and I'm not, in any way, making this political. I mean, 
do you stay with a tax cut, do you stay with funding education, 
do you stay with all these different issues? So we know that 
infrastructure makes you stronger and it's probably pretty wise 
politically in the end, but it's the will to top, and again the 
decisionmaker, getting the advice on where to prioritize and 
put the money.
    I can tell you this: If and when there is another incident 
like September 11, all of a sudden you will see 
reprioritization of money going back into homeland security, 
and in a way that's unfortunate but that's the way it's going 
to be, and if you could just comment on that.
    We could go on forever. This is an enlightening panel, and, 
Mr. Yim, you've done a good job, and why we've gone off the 
subject matter is because we want to get to the bottom line.
    Dr. Kass. Yes.
    Mr. Ruppersberger. Hopefully, we can learn from our 
mistakes and move forward.
    Mr. Yim. I think one of the keys is long-term strategy. 
Even when we budget for recapitalization, we look at the value 
within the OMB scoring period, which is typically 2 to 5 years, 
and most of the value recapping an infrastructure occurs in the 
10th year, something like that.
    We have too short-term of a perspective I think in 
analyzing the strategies. The terrorists have 100, 500-year 
plans. We have 2-year plans.
    Mr. Ruppersberger. That's a culture, though.
    Look at Scheiner vs. the United States. We want it now and 
we get it now. We're effective in doing it.
    OK, thank you.
    Mr. Shays. Yes, we get it.
    Thank you all.
    Mr. Tierney, any closing comments?
    Thank you all for your participation. It's been very 
interesting. I appreciate it and I appreciate the indulgence of 
the audience here.
    Thank you. This hearing is adjourned.
    We will be having a closed-door briefing in room 2003 at 1 
o'clock.
    Thank you. Just to finish up. It will be a fairly short 
meeting, I think.
    [Whereupon, at 12:49 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
